<html>
<title> - MESA VERDE NATIONAL PARK</title>
<body><pre>[Senate Hearing 112-274]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-274

                        MESA VERDE NATIONAL PARK

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

 EXAMINE ISSUES AFFECTING MANAGEMENT OF ARCHAEOLOGICAL, CULTURAL, AND 
 HISTORIC RESOURCES AT MESA VERDE NATIONAL PARK AND OTHER UNITS OF THE 
                          NATIONAL PARK SYSTEM

                               __________

             MESA VERDE NATIONAL PARK, CO, NOVEMBER 5, 2011



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
72-955 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                     MARK UDALL, Colorado, Chairman

MARY L. LANDRIEU, Louisiana          RAND PAUL, Kentucky
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
AL FRANKEN, Minnesota                ROB PORTMAN, Ohio
JOE MANCHIN, III, West Virginia      DEAN HELLER, Nevada
CHRISTOPHER A. COONS, Delaware       BOB CORKER, Tennessee

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee










                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Crow Canyon Archaeological Center, Cortez, CO....................    43
Dyer, James, Former Board Member, Mesa Verde Foundation, Durango, 
  CO.............................................................    17
Gail, Dethloff, Director, Center for Park Research, National 
  Parks Conservation Association, Ft. Collins, CO................    30
Hayes, Gary, Chairman, Ute Mountain Ute Tribe, Towoac, CO........    14
Joss, Laura, Deputy Regional Director, Chief of Staff, 
  Intermountain Region, National Park Service, Department of the 
  Interior.......................................................     4
Krauss, Bambi, President, National Association of Tribal Historic 
  Preservation Officers..........................................    19
Udall, Hon. Mark, U.S. Senator From Colorado.....................     1

 
                        MESA VERDE NATIONAL PARK

                              ----------                              


                       SATURDAY, NOVEMBER 5, 2011

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                      Mesa Verde National Park, CO.
    The subcommittee met, pursuant to notice, at 11:10 a.m. in 
the CCC Recreation Hall, Mile Post 19, Mesa Verde National 
Park, CO, Hon. Senator Mark Udall presiding.

    OPENING STATEMENT OF HON. MARK UDALL, U.S. SENATOR FROM 
                            COLORADO

    Senator Udall. Good morning. The National Parks 
Subcommittee will come to order here at Mesa Verde National 
Park. Before we begin this morning, I'd like to recognize Terry 
Knight, who's the Tribal Historic Preservation Officer for the 
Ute Mountain Ute Tribe for a welcoming prayer.
    So Terry, if you would come forward. We're really pleased 
you're here.
    Mr. Knight. Where? Up there?
    Before doing the invocation I just want to thank all of you 
for being here. Say good morning. Traditionally when we, the 
native people, have a gathering for whatever purpose, we always 
call upon the Creator and the Great Spirit to give us that 
added assistance. So whatever we're doing and whatever we're 
going to be discussing. That way we have some kind of a 
satisfactory feeling that we have accomplished something. That 
kind of paves the way for our endeavors whenever we go. I just 
wanted to say that before my prayer.
    [Speaking in different language.]
    Senator Udall. Thank you, Terry.
    I'm tempted to ask Terry how much snow he asked the Creator 
to deliver the rest of the day.
    [Laughter.]
    Senator Udall. We all know how much moisture can do. Thank 
you for setting the right tone. I've had a chance to go over 
for a couple of minutes to the museum and looked at the Spruce 
Tree House. It only takes a moment to realize the power that's 
here on this Indian, green, Mesa. It's Mesa Verde.
    So welcome to all of you. I'm really pleased to be able to 
chair a hearing of the Senate Subcommittee on National Parks to 
examine the issues affecting the National Park Service's 
management of archaeological, cultural and historic resources 
both here at Mesa Verde and at other National Parks throughout 
the country.
    During this hearing today, I'd also like to explore other 
resources that contribute to the economic development and job 
growth in the communities surrounding the special places we 
call parks. When people think about National Parks they think 
of the amazing landscapes and spectacular scenery, but many 
don't realize nearly two-thirds of the almost 400 sites 
protected as a part of the National Park system were primarily 
established to preserve cultural and historic resources. In 
fact Mesa Verde was designated as a National Park in 1906 and I 
think actually the National Monument was later. I don't know. 
Was it a National Park in 1906?
    Alright. Thank you for that clarification. So this is 
right.
    You all know the important process by which national 
monuments are designated and designated by the Congress as a 
National Park, the Grand Canyon being one more example. But the 
Congress had wisdom in 1906. Could we see some of that wisdom 
in 2011?
    [Laughter.]
    Senator Udall. But in fact Mesa Verde was designated as a 
National Park in 1906 to protect its amazing archaeological 
resources in the famous cliff dwellings making it the very 
first National Park created primarily to protect cultural 
resources. I see a number of friends here among them, Jim Dyer, 
who worked with--for many years for us and everybody gathered 
here today. The personal connection is a powerful one.
    I had the good fortune to pick my parents. My mother, 
Patricia Emery was a Coloradan. She loved this part of the 
world. As a young boy we traveled over and over again to this 
part of the Southwest and--we'd see--on the National Monument. 
I'd spent many a day on the tour of the canyon. I was amazed at 
the astronomy sites at Chaco Canyon. The list goes on and on.
    I've even imagined what it would be like to be a John--or a 
Rich--and ride through the rim of one of these canyons 100 
years ago. So this is really special and personal to me.
    That contact at Mesa Verde really makes history come alive, 
but it's also a really important economic resource that 
provides important local jobs, over half a million visitors 
from around the world a year. In a difficult economic time you 
hear some people say, well can we afford to protect the special 
places in our history and our culture? My answer is a 
resounding yes, might even say it's a hell, yes. That's partly 
what I want to do here, which is highlight the strong benefits 
to the local economy that a park like Mesa Verde brings.
    In effect, that's why I want to hold this hearing here 
today. To draw attention to the amazing resources here, the 
threats they face and the steps that need to be taken to 
recognize all the values that the park provides. As an example, 
I know the park is building a visitor research center on the 
way up the beautiful winding road at the top of the Mesa. In 
addition to the new research center, there are improvements 
that are right for the park investment, park interest I should 
say. Those investments, not only that showcase what the park 
has to offer, make it more accessible to visitors and help 
protect threatened, irreplaceable resources. But they're also 
important to the local economies.
    Just in Montezuma County, Mesa Verde National Park has 
helped generate around $70 million each year in tourism related 
revenue which helps support about 1,000 local jobs. When one 
job matters, 1,000 local jobs are very, very significant. I 
think it's important to note that the size of the construction 
appears related to benefits. The park also provides for 
important historical and archeological research throughout the 
region and the country.
    This region is blessed with cultural resources. I should 
note that Senator Bennet and I offered a bill to create the 
Chimney Rock Archeological Area and National Monument. We've 
been joined by Congressman Tipton, who has introduced the bill 
in the House. That site is very close to why we are here today 
and becoming a unit of the National Park Service. It would--
when we get Chimney Rock designated it would help protect the 
unique Chaco archeological site that's located between Durango 
and Willowtail Springs where there are two spectacular rock 
spires there as well as the remains of the Great House and 
other buildings built by the ancestors of the Pueblo Indians 
over 1,000 years ago.
    Much remains unknown about the Chaco people and the site 
itself. It is a site of astronomical and religious 
significance. It's certainly a very important archeological 
site.
    But with that backdrop, it's important to note that the 
park's cultural resources face a number of challenges. That's 
also what I wanted to explore in this hearing. For example, 
Mesa Verde's cliff dwellings are threatened by weather changes, 
such as drought, which then in turn causes an increase in 
wildfires. In fact, the Superintendent and I were talking and I 
understand that over half the park has been burned at some 
point in the last 15 years.
    The park has exposed a lot of new archeological sites, but 
now those sites are vulnerable to erosion and rain damage. 
They're also at risk of being damaged by plants and animals as 
well as vandalism.
    If you look beyond Mesa Verde, the management of cultural 
resources throughout our country poses a tremendous challenge 
for the National Park Service. The Park Service preserves and 
protects over two million archeological sites, over 27,000 
historic structures and over 120 million historic documents. So 
those numbers are amazing to me. They point out that the Park 
Service has vast responsibilities which are even more of a 
challenge as the agency faces increasing budget limitations.
    So one of my goals as the Chairman of this Subcommittee, 
was to spend more time on the older side of park management 
issues. So in that spirit I've asked a very distinguished panel 
of witnesses to come here today so that we can better learn 
what can be done to protect these amazing resources, what still 
remains to be done and any legislative actions that we need to 
consider in the Congress. I'd like to explore additional 
economic opportunities related to our cultural heritage and 
what we can do to encourage generations of Americans to come 
and enjoy our National Parks.
    Finally I'd like to thank, I should use a more formal 
title, the Park Superintendent, Cliff Spencer and his fantastic 
staff for their help in making this hearing possible. I'd like 
to particularly recognize Bill Elliott for his efforts. He went 
the extra mile to ensure that this day was planned so that we 
can maximize our time.
    As a quick aside there was a proposal a while back to 
privatize the National Park Service. I sit on the Armed 
Services Committee in the Senate. Jim Dyer is the Marine, best 
Marine--and when I heard that proposal to me it sounded a 
little bit like we're going to privatize the Marine Corps. 
We're not going to privatize the Marine Corps. We're not going 
to privatize the National Park Service. They are wonderful, 
unique, American institutions filled with dedicated people, who 
are a part of what I call the portfolio of America's best 
ideas.
    So thank you, Superintendent, for all that you do and your 
staff do as well.
    So let's turn to our panel because I didn't come here to 
listen to myself talk for very long, I hope.
    Let's turn to our first witness, Laura Joss of the National 
Park Service. Ms. Joss serves as the Intermountain Region 
Associate Director for Cultural Resources. Welcome. We're glad 
to have you here, Laura. We look forward to your testimony. 
When you're finished I'll have a few questions I will direct 
your way.
    So thank you. The floor is yours.

  STATEMENT OF LAURA JOSS, DEPUTY REGIONAL DIRECTOR, CHIEF OF 
STAFF, INTERMOUNTAIN REGION, NATIONAL PARK SERVICE, DEPARTMENT 
                        OF THE INTERIOR

    Ms. Joss. Thank you, Senator Udall. I do want to correct 
that my title is Deputy Regional Director, Chief of Staff.
    Senator Udall. Thank you for that correction.
    Ms. Joss. That will be the last correction.
    Senator Udall. We'll make sure that's in the record.
    Ms. Joss. OK.
    Welcome Senator Udall and all of our distinguished guests 
who made it up the hill this morning. Thank you for being here. 
We are honored to have you at Mesa Verde National Park and the 
Intermountain Region of the National Park Service. We are 
honored you have chosen this World Heritage Site for your 
hearing.
    Mr. Chairman, I appreciate the opportunity to appear before 
you today at this oversight hearing on issues affecting 
management of archeological, cultural and historic resources at 
Mesa Verde National Park and other units of the National Park 
System. I would like to submit our full statement for the 
record and summarize the statement here.
    Senator Udall. Without objection.
    Ms. Joss. Thank you.
    Congress established over half of the National Parks 
specifically to protect cultural resources. Almost all parks 
contain some type of cultural heritage. Resources are at risk 
of destruction from lack of maintenance, intentional looting 
and vandalism. More intense fire regimes and changes in 
precipitation and temperature patterns have begun to affect the 
stability and integrity of cultural resources as well.
    Nationally, the National Park Service is working to 
coordinate and redirect cultural resource efforts in a way that 
aligns with Director Jarvis' emphasis on stewardship, 
relevancy, education and the work force and that supports both 
the President's America's Great Outdoors Initiative and the 
National Park Service Call to Action. Current efforts are 
focused on using available resources to address our most 
critical needs, providing renewed coherence to our efforts and 
identifying areas where additional support is needed. The 
National Park Service has already started to address these 
goals by planning to integrate and link our 14 cultural 
resource data bases to facilitate management efficiencies.
    One of the most successful responses to the challenges of 
caring for cultural resources in recent years has been the 
Vanishing Treasures Program, which is an Intermountain Region 
initiative to support cultural resource management in parks in 
the arid West. This program is helping to address the 
devastating destruction of irreplaceable historic and 
prehistoric structures, as well as the potential loss of 
traditional building and preservation expertise.
    Mesa Verde National Park is a good example of a park that, 
with support from the Vanishing Treasures Program, identified 
and prioritized cultural resources and took concrete steps to 
preserve and protect the most significant resources. Since 
1998, the program has provided funding for cultural resource 
projects and to support positions for cultural resource staff. 
As a result, 106 cliff dwelling sites in back country areas, 
including 24 dwellings that had been affected by wild fires, 
have been assessed and prioritized for future documentation and 
preservation treatment. Vanishing Treasures also funded 
documentation at 2 large cliff dwelling sites, Spring House and 
Spruce Tree House.
    The National Park Service is implementing a variety of 
other cultural resource management strategies throughout the 
National Park System. In Nevada, the Southern Nevada Agency 
Partnership shares resources among Federal agencies for a 
volunteer site stewardship program. Private citizens assist 
agencies in monitoring and protecting archeological sites on 
Federal lands from looting and vandalism and receive training 
in site stewardship. This community civic education is crucial 
for the protection of the sites. The Cultural Site Stewardship 
Program received the Department of the Interior Cooperative 
Conservation Service Award in 2007.
    In Hawaii, traditional organizations and local communities 
are working with a national park to repair temple compounds 
that were damaged by earthquake. The stone structures are being 
repaired with traditional methods and traditional tools. The 
park has facilitated sharing and teaching these technologies 
and the community involvement benefited the park by saving $3.5 
million in repairs. For their work, the coordinating 
traditional organization was awarded a Partners in Conservation 
Award in 2011 from Secretary Salazar.
    We have many different programs that train young people to 
be tomorrow's cultural resources stewards.
    In Texas, San Antonio Missions National Historical Park has 
partnered with its friends group, Los Compadres, and a youth 
group to develop an apprenticeship program in masonry repair.
    In Massachusetts, the Salem Maritime National Historic Site 
has developed the First Jobs Youth Program to provide 
employment to young people while teaching them cultural 
resource preservation skills.
    Also in Massachusetts, NPS employees at the Frederick Law 
Olmstead National Historic Site are working to get cultural 
landscape learning activities into the third grade curriculum 
of the public schools. To date, 1,000 third graders from the 
Boston and Brookline public schools have participated in the 
Good Neighbors program. The program has greatly raised the 
visibility of the NPS in this region as a source of teaching 
and learning.
    Here in Colorado we have hosted hundreds of young people 
through the Colorado Preserve America Youth Summit Program. 
They have held on-site programs here at Mesa Verde, Great Sand 
Dunes, in Florissant Fossil Beds, Dinosaur National Monument 
and in 2012 they plan to be at Rocky Mountain National Park.
    Mr. Chairman, we appreciate the opportunity to discuss our 
efforts to meet our cultural resource challenges. This 
concludes my prepared statement. I would be pleased to answer 
any questions you may have.
    [The prepared statement of Ms. Joss follows:]
 Prepared Statement of Laura Joss, Deputy Regional Director, Chief of 
 Staff, Intermountain Region, National Park Service, Department of the 
                                Interior
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today at this oversight hearing on 
issues affecting management of archeological, cultural, and historic 
resources at Mesa Verde National Park and other units of the National 
Park System.
    Over half of the units of the National Park System were established 
by Congress specifically to protect cultural resources, and almost all 
of the units contain cultural resources in the form of prehistoric and 
historic sites and structures. Many of these resources are at risk of 
destruction from lack of attention, intentional looting, and vandalism. 
Recently, more intense fire regimes and changes in precipitation and 
temperature patterns have begun to affect the stability and integrity 
of cultural resources as well. The National Park Service (NPS) manages 
over 72,000 known archeological sites, of which only 50% are in good 
condition; 27,000 historic structures, of which only 41% are in good 
condition; and 2,200 cultural landscapes, of which only 29% have been 
adequately documented. The NPS also manages 42 million objects in 
collections and 52,000 linear feet of records that requires maintenance 
and protection.
    A management approach that protects cultural resources in national 
parks should emphasize identifying resources--their significance, 
location, condition, and threats to their integrity--and uses that 
information to make management decisions to prioritize efforts and 
allocate scarce financial and human resources to protect the highest 
priority resources. The NPS furthers the important work of caring for 
cultural resources through national and regional initiatives, park-
based programs, and a wide range of partnerships.
    Nationally, the NPS is working on coordinating and redirecting 
cultural resource efforts in a way that aligns with NPS Director Jon 
Jarvis' emphasis on stewardship, relevancy, education, and the 
workforce, and that supports both the NPS A Call to Action and the 
President's America's Great Outdoors Initiative. Current efforts are 
focused on using available resources to address our most critical 
needs, providing renewed coherence to our efforts, and identifying 
critical areas where additional support is needed.
    The NPS has already started to address these goals by increasing 
management efficiencies. The bureau has adopted a set of standards 
developed by the Cultural Resources GIS Program for cultural resource 
locational data. Cultural resource locational data reported in the same 
format, be it a landscape or an object, is required of all 14 cultural 
resources databases. Standardization of the locational data allows 
cross-referencing and integration of multiple data bases, facilitating 
compilation of information about cultural resources. By querying 
databases linked through locational data reported in a standardized 
format, managers can more quickly comprehend the full importance of 
each cultural resource, and the effects of management actions. It also 
allows managers to link cultural information to interactive GIS-based 
maps. Consequently, a more sensitive and effective management of NPS 
cultural resources can be realized.
    One of the NPS's most successful responses to the challenge of 
caring for cultural resources in recent years is through the 
development of a region-wide initiative, the Vanishing Treasures 
Program. Vanishing Treasures is an internal NPS program whose goals 
address both the devastating destruction of irreplaceable historic and 
prehistoric structures, as well as the potential loss of traditional 
building and preservation expertise.
    Mesa Verde and 44 other national parks in the Intermountain and 
Pacific West Regions benefit from the NPS Vanishing Treasures Program. 
States that contain Vanishing Treasure parks include California, 
Nevada, Arizona, Utah, Wyoming, Colorado, New Mexico, and Texas. The 
programs goals include documenting the rate of deterioration of 
cultural resources; repairing structures in imminent danger and, in the 
process, developing new techniques and materials toward that end. In 
the last decade, the program was provided with over $1 million annually 
to help protect and preserve cultural resources in parks. In 2011, the 
program funded 12 projects in western parks that helped to preserve 
and/or assess conditions of 160 archeological and historic sites.
    The Vanishing Treasures program also focuses on training young 
people, through mentorship, so they can replace our aging craftspeople 
when they retire. Since the first year of funding, in 1998, more than 
60 cultural preservation-related positions have been funded by the 
program. It is a testament to the importance of these preservation 
positions that the majority of the original 60 positions remain filled 
in parks and some of the individuals trained in Vanishing Treasures 
positions have moved on to continue preservation efforts in other 
agencies or in the private workforce.
         vanishing treasures projects--mesa verde national park
    We acknowledge that a number of recent reports have documented that 
cultural resource stewardship is under tremendous pressure, but Mesa 
Verde National Park is a good example of a park that identified and 
prioritized cultural resources and took concrete steps to preserve and 
protect the most significant resources. Mesa Verde is one of our oldest 
national parks and contains over 586 cliff dwellings sites that 
represent a significant challenge to monitor and manage. Since 1998, 
the Vanishing Treasures initiative has provided $786,800 for cultural 
resource projects and $493,000 added to the park's budget to support 
eight positions for cultural resource staff. Vanishing Treasures 
project funding was used as a cash match for other state and federal 
grants, which helped the park leverage additional funds to complete 
multi-year documentation projects.
    The majority of Vanishing Treasures project funds for Mesa Verde 
National Park supported the Backcountry Condition Assessment Program. 
Site condition assessments aid in the development of baseline 
information regarding deterioration factors and thereby provide 
archeologists and park managers with a foundation for determining the 
need and urgency for preservation treatments. As a result of Vanishing 
Treasures funding, 106 cliff dwelling sites in back country areas have 
been assessed and prioritized for further documentation and necessary 
preservation treatments.
    The Vanishing Treasures initiative also provided funds to help 
complete architectural documentation at two large cliff dwelling sites. 
Spring House contains well-preserved and spectacular architecture that 
is being threatened by erosion from the spring that gave the dwelling 
its current name. The site consists of at least 70 rooms and 6 kivas 
and a 3-story tower that is nearly 25 feet high. Vanishing Treasures 
funding allowed park staff to document Spruce Tree House, stabilize 
structures, and monitor the effects of erosion. It is the third largest 
cliff dwelling in the park, and was constructed between A.D. 1211 and 
1278. The dwelling contains about 130 rooms built into a natural 
alcove.
    In 2005, Vanishing Treasures funding was used to assess the 
conditions of 24 back country cliff dwellings totaling about 142 rooms 
that had been affected by wild fires. An increase in wildfire activity 
and changes in precipitation and runoff patterns has the potential to 
accelerate destruction of these magnificent monuments of the first 
people to live in this land.
    We would like to share with the committee additional examples of 
successful cultural resource programs that echo the successes of the 
Vanishing Treasures Program in training young people in traditional 
technologies and strengthening relationships between parks and local 
communities through project involvement and public education.
 cultural site stewardship program--southern nevada agency partnership
    One of the most important ways to protect cultural resources from 
vandalism is through public education, and the NPS has been very active 
in community involvement in site stewardship programs to monitor 
archeological and other kinds of sites to protect them from vandalism. 
The Southern Nevada Agency Partnership Cultural Site Stewardship 
Program is one such program. This partnership between the NPS, the 
Bureau of Land Management, the U.S. Fish and Wildlife Service, and the 
U.S. Forest Service has provided the framework for a site stewardship 
program that engages communities in protecting archeological sites on 
lands managed by these agencies.
    Since the program's inception in 2004, over 450 community-based 
volunteers have logged more than 14,000 hours monitoring cultural sites 
at risk from vandalism and looting. Site stewards learn about cultural 
resource preservation laws, desert safety, and archeological site and 
artifact identification and discovery protocols. This training imparts 
and reinforces a site preservation and protection ethic, which is the 
best kind of site protection. The Cultural Site Stewardship Program 
received the Department of the Interior Cooperative Conservation 
Service Award in 2007.
         heiau repair--pu'ukohola heiau national historic site
    One of the lessons the NPS has learned from the Vanishing Treasures 
Program is the need to build strong partnerships and engage the younger 
generation in learning traditional technologies. The repair of two 
temples provided Pu'ukohola Heiau National Historic Site, on Hawaii 
Island (Big Island), with an opportunity to engage local communities in 
traditional masonry. In 2006, an earthquake caused significant damage 
to the Mailekini Heiau and the Pu'ukohola Heiau. Approximately 1,000 
cubic meters of the walls and faces of the two temples required repair. 
The damage, involving 15 major collapses of the terrace, main 
foundation, and walls, was estimated to cost over $6.5 million to 
repair using mechanical equipment and, in the repair process, would 
have excluded participation of the descendents of the people who 
originally built the heiaus.
    A community partner organization, Na Papa Kanaka o Pu'ukohola 
Heiau, volunteered to assist the park to repair the earthquake damage. 
Beginning in 2007, around 600 volunteers have been working to repair 
damage to these massive 16th century and 18th century temples using the 
same technologies that were used to build them. The temples were 
repaired using traditional methods of manual dry-stacking of stone 
masonry and traditional tools following traditional Hawaiian protocols 
appropriate to a sacred space.
    Master and journeyman stone masons led the volunteers, who worked 
alongside NPS archeologists, safety officers, and project crew. Twenty 
workshops involving 12 to more than 400 volunteers were conducted over 
this four year span, resulting in substantial savings to the NPS ($3.5 
million saved) to preserve significant architecture and to continue the 
commitment of the descendant peoples, successfully transferring the 
skills of traditional dry stacking masonry and hand lashing of wooden 
ladders, used in place of scaffolding, to the next generation of Native 
Hawaiians. In the process, people who had personally put their hard 
work into the stabilization efforts built and reaffirmed personal and 
perpetual connection to the temples. For their work, the traditional 
organization was awarded a Partners in Conservation Award in 2011 from 
Secretary Salazar.
mason apprenticeship program--san antonio missions national historical 
                                  park
    To foster interest and opportunity for a new generation of skilled 
historic preservation professionals, the National Park Service promotes 
training opportunities for young people. San Antonio Missions National 
Historical Park has facilitated a partnership between its friends 
group, Los Compadres, and the Environmental Corps of American 
Youthworks to establish an apprenticeship program in masonry repair. 
American Youthworks engages youth and young adults in conservation work 
with a community focus and Los Compadres provides financial investment 
for the apprentice program.
    Beginning in 2008, the program hosted four apprentices. Since then, 
nearly two dozen individuals have moved through the program, working 
with NPS experts to repair limestone and sandstone walls. The 
apprentices have contributed more than 2,000 hours of work on walls in 
the four mission compounds, the nation's only functioning Spanish 
colonial aqueduct, a grist mill, and two historic dams. The program 
inspired one of the students to return to graduate school in historical 
architecture. Another student turned his experience in the 
apprenticeship program into a highly qualified applicant rating, and 
gained seasonal work with the NPS. The preservations skills and 
knowledge that young people gain while assisting the San Antonio 
Mission staff with cultural resource preservation will provide benefits 
both to the resources and the apprentices in years to come, by building 
good foundations for future work.
    first jobs youth program--salem maritime national historic site
    Another example of the NPS's commitment to training cultural 
resource stewards for the 21st century is the First Jobs Program at 
Salem Maritime National Historic Site. Since 2009, the park has worked 
with the Massachusetts North Shore Youth Career Center to reach out to 
disadvantaged youth, a segment of the general population usually not 
attracted to national parks. The park approached the North Shore 
Workforce Investment Board (Department of Labor) to obtain funds to pay 
the young people, and the Essex National Heritage Area managed the 
program's administration.
    The program began with 10 students, and has since grown to 25. The 
park's goals are to provide students with employment skills, and to 
place the best students in positions in parks in the Boston area. The 
students learned prepping and painting, and the park further invested 
in them by teaching the specialized skill of gold leafing. The group 
made impressive contributions to the maintenance of historic buildings 
in the park. They repainted the trim on one historic structure, the 
Customs House, built in 1819; painted the entire exterior of the 1675 
Narbonne House; and refurbished a portion of the site's fencing that 
contributed to the historic 1938 landscape plan.
    For many students, this was their first employment experience. They 
learned important life skills, such as writing resumes, correctly 
completing job applications, dressing appropriately, and interacting 
with the public, which will stand them in good stead in the future. The 
project manager, NPS woodcrafter Douglas Law, was given the NPS 
Director's 2010 Appleman-Judd-Lewis Award for Facility Maintenance. By 
combining the needs of the park cultural resource management program 
with a willingness to help disadvantaged youth, he was not only able to 
complete much-needed work but was able to instill in the youth an 
appreciation for cultural resources, which will pay dividends in the 
future for the NPS.
    Good Neighbors: Landscape Design & Community Building--Frederick 
Law Olmstead National Historic Site The NPS is committed reaching very 
young audiences, as well, with cultural resource educational messages. 
In Massachusetts, the Frederick Law Olmstead National Historic Site is 
growing citizens with an appreciation for cultural resources, and 
cultural landscapes in particular, through a program that targets third 
graders in the community of Brookline. Begun in 2007, this unique 
program draws on children's skills and creativity and encourages them 
to plan parks and cultural landscapes. Good Neighbors takes place at 
Fairsted, the historic Brookline home and office of landscape architect 
Frederick Law Olmstead, and uses the grounds, restored office, archival 
collection, and model workshop to explore landscape design and park 
stewardship.
    To date, a thousand third graders from the Boston and Brookline 
public schools have participated in the Good Neighbors program. In 
2011, alone, the park hosted 18 classes consisting of 440 students, 
totaling more than 2,350 visitor hours. The Brookline public schools 
system has embedded the program in its grade three curriculum, ensuring 
that every student who moves through the school system will be exposed 
to the Good Neighbors program. The park received the prestigious Award 
of Excellence in Communication from the Boston Society of Landscape 
Architects for their work on Good Neighbors.
    This is the first program to introduce young learners to cultural 
landscapes and to the community-building power of public parks as part 
of an integrated elementary level curriculum. It has greatly raised the 
visibility of the NPS in this region as a source of teaching and 
learning, successes that can be translated to other parks. In 2012-
2013, Olmstead National Historic Site will begin a national roll-out of 
the Good Neighbors programming model in collaboration with the National 
Association for Olmstead Parks.
    Mr. Chairman, we appreciate having the opportunity to discuss our 
efforts to meet our cultural resource challenges. This concludes my 
prepared statement. I would be pleased to answer any questions.

    Senator Udall. Thank you, Deputy Regional Director for that 
testimony. Before I direct some questions, I want to recognize 
State Representative J. Paul Brown who is in the audience 
today. Thank you for being here, Representative.
    If I have a chance to visit with you before you ran out 
every time I've tried to talk to you. I'd been running for 
Senator, so there are worse things than losing an election. One 
of them is winning the election.
    [Laughter.]
    Senator Udall. Jim Dyer is here as well. Thank you both for 
being here.
    A few minutes ago I highlighted the economic benefits or at 
least some that accrue the Four Corners region because of Mesa 
Verde. Do you have any sense of whether other cultural and 
historical parks throughout the National Park System would 
provide similar economic benefits to the local economies?
    Ms. Joss. Definitely. When I was working at Yellowstone 
National Park, we were creating a museum partnership with all 
of our surrounding communities. Our gateway communities are 
very important to our visitors as well as to the park. So what 
we tried to do through the creation of the Yellowstone Museum 
Consortium was to share our visitors with those museum sites by 
informing the visitors of those sites and also providing 
professional assistance to the museums outside of the park.
    But this is a very important issue to the Park Service as a 
whole and it's listed in Director Jarvis' Call to Action. Our 
Regional Director, John Wessels leads up the Economic Benefits 
Committee of the Call to Action. So we're all very interested 
and try to document those numbers as well as increase them.
    Senator Udall. Let me move to another subject which you 
touched on in your remarks. I've been trying for years to find 
ways to get children into our parks, both because of exposure 
to the national, cultural treasures, but also employment 
programs that provide for youth jobs working on our public 
lands. Finally because we are seeing increasingly lower levels 
of fitness and increasing levels of obesity in our population. 
An unfit country is not a strong country and a fit country, by 
definition, will be a strong country.
    Can you talk about what you're doing in Colorado through 
the Park Service to improve access and encourage access on the 
part of, not just children, but also adults to our parks and 
any park related job initiatives?
    Ms. Joss. Definitely. I did mention the Colorado Preserve 
America Youth Summit.
    Senator Udall. Yes.
    Ms. Joss. We are very proud to help assist with that 
program.
    In Rocky Mountain National Park we have seven different 
programs that provide a variety of work, educational and 
research opportunities for young people particularly urban 
youth initiatives. These programs address youth with a range of 
needs, ages, backgrounds and provide training and employment, 
then encourage young people to obtain those skills to compete 
for permanent National Park Service jobs.
    I can read those names if you'd like.
    Senator Udall. Why don't you submit it for the record? How 
does that sound?
    Ms. Joss. OK.
    We have Pathways to Park, Eagle Rock Internship Program, 
Groundwork Denver Internship Program, the Environmental 
Learning for Kids Internship Program, 50/50 Program, the Pro 
Ranger Program.
    Senator Udall. Great.
    Ms. Joss. The George Melendez Wright Climate Change 
Internship and Fellowship Program.
    Senator Udall. Do you have anything you wish to add to that 
list, that question?
    Ms. Joss. Not at the moment, thank you.
    Senator Udall. For a number of years the Park Service has 
had a successful program known as the Natural Resource 
Challenge. It was designed, as I understand it, to increase 
funding for protection of threatened natural resources at our 
parks throughout the country. Given the success of that program 
should the Park Service consider establishing a similar 
challenge to identify and protect cultural resources, maybe the 
Natural Cultural Resource Challenge would be a term we could 
apply?
    Ms. Joss. The Park Service is facing great challenges in 
managing cultural resources as we've discussed earlier. To 
identify what resources we have, what the threats to those 
resources are, how best to respond to those threats and to 
share the knowledge learned so that all involved are in power 
to make better decisions, we're developing strategic priorities 
for focusing our efforts using our available resources to 
address the most critical needs and providing renewed coherence 
to our efforts.
    This coordinated effort to better deploy our resources in 
management of our cultural heritage is articulated in Director 
Jarvis' Call to Action and in President Obama's America's Great 
Outdoors Initiative. We also hope to use successes that we've 
learned at individual parks to extend those out service-wide.
    Senator Udall. How do we pay for this in a tough budget 
environment?
    Ms. Joss. We have appreciated the Secretary advocating for 
the Historic Preservation Fund and the Appropriations Committee 
has maintained a steady level of funding. We also appreciate 
the support that's been given to our Cultural Resources 
Program.
    Senator Udall. But we need to be vigilant is what I'm 
hearing you saying. I think one underlying opinion on my part, 
but it's backed up by the fact that there are many reasons to 
do this including economic reasons.
    Here's an easy question. What do you think the most 
critical priority the Park Service needs to address is with 
respect to cultural resource management?
    Ms. Joss. I actually have a list of those, if I can find 
it. OK. I'm going to speak from the Intermountain Region to 
answer that question.
    Senator Udall. We're over biased. We're Westerners. As my 
friends from California remind me, we're Rocky Mountain 
Westerners. I'll wear that title proudly. They can be far 
Westerners. We're Rocky Mountain Westerners.
    Ms. Joss. One of the most pressing challenges in cultural 
resource management includes loss of structural integrity of 
the exterior adobe walls at the Spanish Mission at Tumacacori 
National Historic Park. In both 2010 and 2011 Southern Arizona 
received major rains over a period of several days. The rain 
softened the adobe walls and a hole 14 feet wide and 10 feet 
tall was created in the sanctuary where 1.5 tons of material 
collapsed.
    Another is that climate change is threatening the integrity 
of archeological resources at high altitudes. You referred to 
this earlier, Senator. But formerly protected sites are now 
within the fire danger zone. Melting glaciers and snow are 
revealing frozen objects and artifacts that deteriorate 
quickly.
    Then the third issue would be that 76 percent of the parks 
in the Intermountain Region manage significant museum 
collections such as those at Grand Teton National Park and 
Little Big Horn National Monument without the benefit of a 
professional-level museum curator.
    Senator Udall. Thank you for those three areas. In the 
parks are and I think specifically Mesa Verde, the debate we've 
had as Western communities when it comes to ceramic pot 
hunting, for lack of a better term. It's a crude term, but 
those who vandalize sites that in effect rob the future 
generations of knowledge and also, of course partake of our 
Native American brothers and sisters from those sacred sites.
    Have those kinds of activities and incidents been rare in 
the parks?
    Ms. Joss. I can't give you figures on that. But we have 
addressed those incidents through the Archaeological Resources 
Protection Act. Unfortunately, they do happen. But we're trying 
to work to address them as quickly as possible and to prevent 
them, more importantly.
    Senator Udall. I know we have similar challenges on our 
forest and BLM and national wildlife units.
    This is an iconic site here. What are some of the best 
practices learned here that have been applied to other parks or 
could be replicated at other National Parks, National Park 
units?
    Ms. Joss. Mesa Verde National Park and its friends group, 
the Mesa Verde Foundation, is a good example of the ways that 
partners can work together effectively to protect cultural 
resources. The park has also successfully leveraged Vanishing 
Treasures funding to complete many long term rehabilitation 
projects.
    Senator Udall. Can I go back to the previous question?
    Will you provide for the record statistics on looting and 
vandalism in the National Park?
    Ms. Joss. Sure. We will provide you with those. Yes.
    [The information referred to follows:]

    At the November 5, 2011, hearing on issues affecting management of 
archeological, cultural and historic resources at Mesa Verde National 
Park and other units of the National Park System, the National Park 
Service witness, Laura Joss, Deputy Regional Director for the 
Intermountain Region, indicated that she would provide additional 
information to the subcommittee. This letter provides the requested 
information.
    You requested statistics on looting and vandalism within the 
National Park System. The following statistics document known 
violations of the Archaeological Resource Protection Act (ARPA), the 
Antiquities Act, or other statutes protecting cultural or 
paleontological resources from 2006 through 2010:

  <bullet> 2006, 471 cases (Cultural and paleontological resources)

    --6 arrests made in cases of documented vandalism or looting
    --53 citations issued in cases of documented vandalism or looting
    --Example: An individual was arrested and sentenced to 18 months in 
            jail for stealing historic letters written by George 
            Washington and Abraham Lincoln and selling them for 
            $97,000.

  <bullet> 2007, 403 cases (Cultural and paleontological resources)

    --16 arrests made in cases of documented vandalism or looting
    --56 citations issued in cases of documented vandalism or looting
    --Example: Two brothers were arrested and sentenced for stealing 
            historic Navajo rugs from Hubbell Trading Post National 
            Historic Site, and Cook Collection museum pieces from Agate 
            Fossil Beds National Monument totaling over $200,000.

  <bullet> 2008, 454 cases (Cultural and paleontological resources)

    --16 arrests made in cases of documented vandalism or looting
    --42 citations issued in cases of documented vandalism or looting
    --Example: ``Operation Antiquities,'' a five year investigation 
            involving the National Park Service, Internal Revenue 
            Service, and Immigrations and Customs, led to numerous 
            warrants and subpoena services in several states for 
            looting, importation, sale and tax fraud violations related 
            to historical and cultural items.

  <bullet> 2009, 276 cases (Cultural resources)

    --8 arrests made in cases of documented vandalism or looting
    --66 citations made in eases of documented vandalism or looting
    --Example: Three juveniles were convicted of vandalizing the Kane 
            Cemetery in Bighorn Canyon, Wyoming. The juveniles 
            destroyed historic headstones through physical breaking and 
            spray painting.

  <bullet> 2010, 401 cases (Cultural resources)

    --23 arrests made in cases of documented vracialism or looting
    --44 citations made in cases of documentedandalism or looting
    --Example: After a three year multi agencyinvestigation by the 
            National Park Service and Fish and Wildlife Service, over 
            30,000 artifacts, mostly burial goods, were returned to the 
            California Native American Heritage Commission.

    Please note that prior to 2009, the National Park Service recorded 
total paleontological violation cases with cultural resource violation 
cases. The 2009 and 2010 statistics are cultural resource violations 
only.

    Senator Udall. Thank you very much.
    Let's turn to--unique management regime. What steps does 
the Park Service take to coordinate management protection of 
cultural resources with interest in tribes?
    Ms. Joss. We work together with the tribes through tribal 
consultation on a regular basis and related to the sacred sites 
on park lands. If I could refer the Park Services Committee to 
section 304 of the National Historic Preservation Act of 1966, 
that section ensures confidentiality about the information 
about historic resources that would cause a significant 
invasion of the right to privacy that would risk harm to the 
resources or interfere with the use of sacred sites.
    Mesa Verde National Park is a good model for holding 
information about archeological sacred sites confidential.
    Senator Udall. Would that be one of the other best 
practices, perhaps, that could be applied to other parks 
dealing with their cultural resources?
    Ms. Joss. Yes. Thank you. Yes, it is.
    Senator Udall. Do you have anything else you'd like to 
offer for the record at this point?
    Ms. Joss. I do not.
    Senator Udall. Do you have any questions you want to ask 
me? That's not----
    Thank you. Thank you, Deputy Director for your testimony 
and for your interest. We'd like to invite you stay on the 
stage. Then I'd like to call the next panel to the stage, if 
they would.
    Ms. Joss. Thank you very much.
    Senator Udall. Thank you.
    [Various speakers as next panel moves to stage.]
    Senator Udall. Alright we'll get started with our second 
panel. I'm going to ask the panel to project when they speak. I 
think we've got the audio system at least somewhat in balance.
    It's great to see these children back here who have joined 
us.
    I see Senator, former Senator Whitehead is here. That's his 
family. It's great to see you here.
    Again, thank you all for taking time. I know, Terry, it's 
still snowing out there. It's starting to accumulate. We love 
our moisture, though.
    Let me introduce the members of our second panel as a 
group. Then we'll come back and start with Chairman Hayes with 
the initial comments.
    But we do have Chairman Hayes here. He's with the Ute 
Mountain Ute Tribe. I'm really happy to welcome you here.
    I did want to mention the tribe and I think all of us lost 
recently a much loved and respected leader, former Chairman 
Earnest House, Senior. He was a friend to many here in the room 
and the tribal park adjacent to Mesa Verde was a real source of 
pride for him. I know our hearts are heavy, but I know he'd 
want us to carry on and appeal to the best in each other. So 
you have and will carry on in his spirit.
    Next to the Chairman is Jim Dyer, a former Board Member of 
the Mesa Verde Foundation. Jim and I served in the State 
legislature. Everything I know, J. Paul Brown, I learned from 
Jim Dyer. He also served in our State senate, served on the 
PUC, our Public Utilities Commission. He is a Marine. It's 
really great to see, Jim. Always someone who has dedicated 
himself to causes greater than his own self. Thank you.
    Next to Jim we have Bambi Krauss, who represents the 
National Association of Tribal Historic Preservation Officers. 
Welcome.
    Then finally we're joined by Dr. Gail Dethloff, Senior 
Director of the National Parks Conservation Association's 
Center for Park Research.
    So thank you all for joining us. I'm really eager to hear 
your testimony.
    I'm going to turn to the Chairman. I'll ask each of you to 
do all you can to keep your remarks to 5 minutes so that we can 
then have a lively conversation and add additional material for 
the record.
    So, Mr. Chairman, the floor is yours.

  STATEMENT OF GARY HAYES, CHAIRMAN, UTE MOUNTAIN UTE TRIBE, 
TOWOAC, COLORADO; ACCOMPANIED BY TERRY KNIGHT, TRIBAL HISTORIC 
                      PRESERVATION OFFICER

    Mr. Hayes. Thank you, Senator. I appreciate the opportunity 
here. Thank you for comments on regarding Earnest House, 
Senior. It's definitely a loss to us. I know that if he was 
here I would help him instead of taking his place because he 
was very into preserving culture and history and the conditions 
of the site. Thank you for your comments, Senator.
    Good morning, Senator Udall and distinguished guests. I'm 
Gary Hayes from the Ute Mountain Ute Tribe whose tribes are 
located in Colorado, Northern New Mexico, Eastern Utah. 
Accompanying me today is Mr. Terry Knight, our Tribal Historic 
Preservation Officer for the Tribe.
    Thank you for the opportunity to testify before the 
Committee and bring you information important to the protection 
of all the National Park resources within the Rocky Mountain 
region. Because of Mr. Knight's knowledge and experience the 
Ute Mountain Tribe is an active participant in the Region as a 
consulting tribe and partner in many projects. Each park within 
the Region has its unique assets and common concerns in 
consulting with tribes.
    The challenge for all in this economy is funding. Careful 
goal oriented budgets regarding staffing and training is key to 
a successful protection of all park cultural resources. The 
economy forces all agencies to supplement the work force with 
volunteer groups and youth conservation groups.
    How all this affects cultural resources?
    By hiring and training qualified staff we can:
    One, protect the Tribal collections and sites and the laws 
that protect these previous collectionsites must be firmly 
enforced.
    Two, ensure the proper care and maintenance of NAGPRA 
inventories and materials held within the parks.
    Three, the National Park Service policy for NAGPRA and 
associated objects is followed.
    Four, implementation of NAGPRA policy should include 
consideration of whether these collections should be held in a 
regional Federal repository and not individual parks. The 
National Park Service needs to ensure that the 106 Tribal 
consultation protocols are followed and include all of the 
National Park Service sites, objects and inventories, as well 
as the notification of collections they hold for other 
agencies.
    In the eyes of the affiliated Tribes, inadequate 
information and unproductive consultation costs money and time 
and creates frustration that the National Park Service, as well 
as other Federal and State agencies, are not adequately 
considering the Tribal perspective and taking in the advice on 
Native culture heritage.
    The Tribal viewpoint that I have heard expressed is that 
all Federal and State held lands over which Congress and 
related agencies have jurisdiction because of culturally rich 
resources areas are not limited by park boundaries or State 
borders.
    The Tribes request that all training of National Park 
Service employees includes cultural awareness, competency to do 
their National Park Service duties and respect for each Park's 
affiliated Tribes and Pueblos. The Rocky Mountain Regional 
Office of the National Park Service has initiated consultation 
with its affiliated Tribes and Pueblos and maintains 
communication and consideration of their concerns.
    The cultural heritage and landscapes within the Rocky 
Mountain region are important to all of the affiliated Tribes 
and Pueblos. These resources must be protected and 
appropriately preserved when found on all lands. They are 
extremely important far more than their commercial value or 
artistic pleasure when displayed. They are, to the affiliated 
tribes and pueblos, a part of history of native people, a 
remembrance of the strength of their survival, their 
initiative, their innovation and life practices. All agencies 
should consider with respectful attention to the spiritual and 
cultural beliefs concerning sacred sites, sacred activities and 
their associated sacred objects. To our people, these are not 
objects for barter or show, they are the tools of our lives, 
the cultural heritage left to us from our ancestors.
    The Ute people have protected these lands from time 
immemorial. These lands are a part of our original homeland and 
at one time a part of our reservation lands. We continue to 
regard these lands and the associated cultural resources with 
great respect and it is extremely important to us that these 
lands be managed and properly regarded to the peoples who have 
historically occupied these lands, whose ancestors and buried 
here and who prayed here.
    We wish to participate in the preservation of these lands 
and the resources to the greatest extent possible. It is Native 
heritage and practices that give these lands their unique 
character. The preservation and protection of these cultural 
resources is a fundamental trust responsibility.
    Again, given the economic landscape, we should not forget 
the important functions of the National Park Service. Congress 
needs to support the Park Service's policy of maintaining its 
long standing and extremely valuable relationships with the 
tribes.
    In closing I would like to thank you, Senator Udall and 
distinguished guests, for the opportunity to express our point 
of view to establish in advance the tribal government 
involvement in the development and implementation of laws, 
programs and policies that affect tribal interests in the 
protection of our natural resources.
    [The prepared statement of Mr. Hayes follows:]
  Prepared Statement of Gary Hayes, Chairman, Ute Mountain Ute Tribe, 
                               Towoac, CO
    Good Morning Senator Udall and Distinguished guests;
    I am Chairman Gary Hayes from the Ute Mountain Ute Tribe whose 
lands are in Colorado, Northern New Mexico and Eastern Utah. 
Accompanying me today is Mr. Terry Knight, Tribal Historic Preservation 
Officer for the Tribe.
    Thank you for the opportunity to testify before this committee and 
bring you information important to the protection of all National Park 
resources within the Rocky Mountain Region. Because of Mr. Knight's 
knowledge and experience the Ute Mountain Ute Tribe is an active 
participant in the Region as a consulting Tribe and partner in many 
projects. Each park within the Region has its unique assets and common 
concerns in consulting with Tribes.
    A challenge for all in this economy is FUNDING: careful goal-
orientated budgets regarding STAFFING and TRAINING is the key to 
successful protection of all Park Cultural Resources. The economy 
forces all agencies to supplement their work force with volunteer 
groups and youth conservation groups.
    How all of this affects Cultural Resources? By hiring and training 
of qualified staff we can:

          (1) Protect the Park collections and sites; the laws which 
        protect these previous collections and sites must be firmly 
        enforced.
          (2) Ensure the proper care and maintenance of NAGPRA 
        inventories and materials held within the parks;
          (3) The National Park Service policy for NAGPRA and 
        associated objects is followed.
          (4) The Implementation of the NAGPRA policy should include 
        consideration of whether these collections should be held in a 
        regional Federal repository and not the individual parks. The 
        National Park Service needs to ensure that the 106 Tribal 
        consultation protocols are followed and include all of the 
        National Park Service sites, objects and inventories; as well 
        as the notification of the collections they hold for other 
        agencies,

    In the eyes of the affiliated Tribes, inadequate information and 
unproductive consultation costs money and time, and creates frustration 
that the National Park Service, as well as other Federal and State 
agencies are not adequately considering the Tribal perspective and 
taking in the advice on Native culture heritage.
    The Tribal viewpoint that I have heard expressed is that all 
Federal or State held lands over which Congress and related agencies 
have jurisdiction because of culturally rich resources areas are not 
limited by park boundaries or State borders.
    The Tribes request that all training of National Park Service 
employees includes cultural awareness, competency to do their National 
Park Service duties and respect for each Park's affiliated Tribes. The 
Rocky Mountain Regional Office of the National Park Service has 
initiated consultation with its affiliated Tribes and Pueblos and 
maintains communication and consideration of their concerns.
    The cultural heritage and landscapes within the Rocky Mountain 
region are important to all of the affiliated Tribes. These resources 
must be protected and appropriately preserved when found on ALL lands. 
They are of extreme importance far more than their commercial value or 
artistic pleasure when displayed. They are, to the affiliated tribes, a 
part of history of native people, a remembrance of the strength of 
their survival, their innovation and life practices. All agencies 
should consider with respectful attention to the spiritual and cultural 
beliefs concerning sacred sites, sacred activities and their associated 
sacred objects. To our people, these are not objects for barter or 
show...they are the tools of our lives the cultural heritage left to us 
from our ancestors.
    The Ute People have protected these lands from time immemorial. 
These lands were part of our original homeland, and at one time a part 
of our reservation lands. We continue to regard these lands and the 
associated cultural resources with great respect and it is extremely 
important to us that these lands be managed with proper regard to the 
peoples who have historically occupied these lands, whose ancestors are 
buried here, and who prayed here. We wish to participate in the 
preservation of these lands and the resources to the greatest extent 
possible. It is Native heritage and practices that give these lands 
their unique character and the preservation and protection of these 
cultural resources is a fundamental trust responsibility.
    Again, given the economic landscape, we should not forget the 
important functions of the National Park Service, and Congress needs to 
support the Park Service's policy of maintaining its long-standing and 
extremely valuable relationships with tribes.
    In closing, I would like to thank you Senator Udall and distinguish 
guest for the opportunity express our point of view to establish and 
advance tribal government involvement in the development and 
implementation of laws, programs and policies that affect tribal 
interests in the protection of natural resources.

    Senator Udall. Thank you, Chairman Hayes, for that very 
powerful and eloquent statement, particularly the two 
paragraphs that speak to the value of these lands that are 
beyond price, so key to the history of a unique people. Thank 
you for that----
    Mr. Dyer, it's good to see you Jim.

   STATEMENT OF JAMES DYER, FORMER BOARD MEMBER, MESA VERDE 
                    FOUNDATION, DURANGO, CO

    Senator Dyer. Thank you.
    Senator Udall. I should note for the record that Jim Dyer 
did not submit a statement which is his way of doing things 
which I have always admired. He speaks from the heart. He 
speaks from the head.
    Senator Dyer. You're using up my time.
    [Laughter.]
    Senator Udall. You have all the time you'd like.
    Senator Dyer. We go back a long ways. I was--had a couple 
terms in the State House and Senate from House District 59 that 
J. Paul Brown, ably represents now. I can't mention J. Paul 
Brown without mentioning his dad, Casey Brown and mom, Jean, 
who formed this boy. Welcome, J. Paul.
    Yes, we go back a long ways. Welcome to this part of the 
world that I was honored to represent in the State legislature 
and thanks for mentioning my Marine Corps service, 3 years in a 
place called Vietnam. I'm proud of that service as well.
    In the mid-1990s the need for a new visitor and research 
center became evident because the Far View Center was, well, 
far, into the Park. Many times people were reluctant to drive 
that distance because they weren't assured of having a ticket 
to go visit the sites. So it became evident that we needed to 
get a place where they could find out about the park much 
closer to the highway.
    There's a powerful story that goes around from some 
tourists from New York, I think it was, asked how come the 
Ute's didn't build the site closer to the highway? Not true.
    Also, the archeological collections were stored in the tin 
shed which was neat. We needed proper storage and conservation 
preservation. So a new visitor and research center would 
address both these issues. Mesa Verde Foundation was formed in 
1997 with the goal of building this new center.
    The Mesa Verde Foundation purchased land near the Park's 
entrance in 1999. Then the Park's boundaries were expanded in 
2007 to include this land. Then the Mesa Verde Foundation 
deeded the land over to the Park.
    The Mesa Verde Foundation raised funds for the 
architectural design and planning documents for the VRC. These 
plans, drawings and also were donated to the Park for the 
project. I should note that the 24 tribes who share the 
heritage of Mesa Verde were involved in the planning of the 
site. Things like where do you board out the entrance to it. It 
had to be according to what the tribal folks said it should be.
    Through the efforts of the Mesa Verde Foundation Board and 
Board Friends in particular, Frederick Lau of Phoenix, and 
General were on the phone with the U.S. Air Force. He was the 
15th Chief of Staff of the Air Force, of Durango, in 
particular. Funding was secured through congressional 
appropriation. Then Representative John Salazar and Interior 
Secretary Ken Salazar, his brother, were instrumental in 
helping shepherd the appropriation through Congress. About 20 
million in stimulus funds from the American Recovery and 
Reinvestment Act went toward the project.
    The Mesa Verde Foundation remains a strong committed 
partner to the Mesa Verde National Park. The Foundation's 
purpose is to fund capital improvements, projects and 
educational endeavors that promote an understanding and 
preservation of the park's cultural and natural resources.
    That concludes my testimony, Sir. I will sit down and shut 
up.
    [Laughter.]
    Senator Udall. OK, thank you, Senator Dyer.
    The concise and informative set of comments. I did want to 
acknowledge the wonderful work that the MVF does. Take note, 
that most, if not all of the National Park units have similar 
organizations. Increasingly we're working in partnership with 
those organizations to complete projects, generate volunteers 
and nurture and take care of the parks. So thank you for that 
incredible gift you've given to all of us in leading this 
important effort.
    Senator Dyer. There were some people early on that buying 
that land was critical to the whole, you know, the critical 
piece of the whole thing. I mean, without that land it could 
be, you know, a set of lemons for us.
    Senator Udall. I was going to let you say that. Exactly, 
exactly. We're all for commerce.
    It's--what's important to note is that there are people who 
love this park who are far, far afield. Americans in every 
State, every territory and even of course, citizens of other 
countries who fall in love with Mesa Verde and want to support 
it, be sure that it's protected in perpetuity. You created a 
way in which that can happen.
    Senator Dyer. Yes.
    Senator Udall. Ms. Krauss, it's great to have you here. The 
floor is yours. Look forward to your testimony.

 STATEMENT OF BAMBI KRAUSS, PRESIDENT, NATIONAL ASSOCIATION OF 
             TRIBAL HISTORIC PRESERVATION OFFICERS

    Ms. Krauss. Thank you very much. My name is Bambi Krauss. 
I'm the president of the National Association of Tribal 
Historic Preservation Officers and our chairman, Reno Franklin, 
had planned on being here today, but unfortunately family 
obligations kept him in California and he asked that I come 
here and represent our organization.
    As you know, NATHPO submitted a lengthy written statement 
that will be entered into the record, I'm assuming. So I'm 
going to summarize some of the points in that testimony.
    I think in the opening statement, I think NATHPO feels 
confident that cultural preservation is a tribal success story. 
With a little time and resources and effort it could be premier 
preservation program in the United States. You know, we've 
survived misguided efforts of the Federal Government to 
eliminate Native American cultures. They have prohibited the 
speaking of our Native languages and prohibited Native 
traditional healing practices and look what it's created, a 
variety of social and economic and health damages throughout 
our history. The past, as I said, 150 years have been 
devastating and yet, Native people are here today.
    I work with the tribal historic preservation officers and 
they were created legislatively 20 years ago in the 1992 
amendment to the National Historic Preservation Act. Since 
passage, the Indian tribes have been more actively involved in 
the preservation and protection of their culture and life ways. 
This last, kind of, helping tribes preserve and protect is the 
reason why NATHPO was created. We, the 12 original THPOs in 
1998 created NATHPO. We're based in Washington DC. Today there 
are 124 Indian tribes participating in the program.
    Mr. Terry Knight here in the front row is a living example 
of the THPO program in action. I wanted to recognize him and 
his family in the back for all their hard work. They're one of 
the more recent THPOs, but that is merely a name in terms of a 
THPO program because Terry Knight has been practicing his 
culture and traditions throughout his entire life. Cultural 
preservation is not something that once you become a THPO, you 
become an automatic expert in traditional Native ways. But it 
is something that is a major commitment for any Native person.
    NATHPO has an annual conference each year. We also do 
provide technical assistance to our member tribes. We also 
conduct original research and publish reports.
    A few of them are significant for today's hearing is we are 
about to publish one on tribal cultural landscape.
    We published the first ever evaluation of Federal agency 
compliance with the Native American Greatest Protection and 
Repatriation Act.
    We did an original study on tribal consultation and the 
benefits of actually including tribes at the beginning of all 
your projects.
    Then finally we actually had a Tribal Park and 
Environmental Organization Summit for the Pacific West region 
back in 2005 and that was led by, at the time, Pacific West 
Regional Director, John Jarvis.
    So today I'm just sharing a tribal perspective and it's one 
that's rarely heard. We really appreciate this opportunity, 
Chairman Udall. Thank you for calling this hearing.
    I'm probably going to run out of time, but I was hoping to 
highlight six tribal specific issues, 2 tribal park issues and 
then one overriding tribal deficiency issue. So I'll run 
through those very quickly.
    Again, the statement has much more detail.
    I want to thank Chairman Hayes for bringing up the 
government--relationship and the trust responsibility because I 
kind of assumed that the whole world knows that now. NATHPO and 
our tribal members believe that's some of our bedrock. So I 
wanted to thank Chairman Hayes for making sure that he brought 
that up.
    Just to touch on the THPO program. It's been an 
overwhelming success at the tribal level and the Federal agency 
level. But the THPO program, any kind of Federal development, 
any undertaking related to Federal moneys has to ensure 
compliance with the National Historic Preservation Act.
    So we have strong THPO tribal programs that any health 
service clinic, that tribal school, that road that goes, you 
know, in or out or on a tribal land is going to be a lot more 
efficient. We feel that it's, the THPO program, not just a feel 
good program. It's really essential to making Indian country 
work. It's an important part of the infrastructure that's still 
needed in Indian country. So I want to make sure that people 
understand that it's not just a feel good program.
    You know, the pace of the program is very quick. There were 
12 in 1996 and now we're up to 124. So the issue is not with 
the success of the program. The issue is the Federal funding.
    So this is an example of the disparity between the level of 
support that states get verses the level that tribes get. So 
the average THPO grant will be about--will be below $70,000 a 
year. I don't have the exact number but the average SHPO, State 
Historic Preservation Officer grant in the hundreds of 
thousands, usually about $500,000. The Tribal Historic 
Preservation Officer program has--the tribe has assumed the 
responsibilities of the State on tribal land. So that's the 
crucial part of that.
    So I think with my time left I can keep going or I can come 
back and bring some other issues up.
    Senator Udall. Why don't we come back to some of the 
additional issues?
    Ms. Krauss. Thank you very much.
    [The prepared statement of Mr. Franklin follows:]
     Prepared Statement of Reno Keoni Franklin, Chairman, National 
          Association of Tribal Historic Preservation Officers
    Good morning, Chairman Udall.
    My name is Reno Franklin and I am the chairman of the National 
Association of Tribal Historic Preservation Officers (NATHPO) that is 
based in Washington, DC, and which has members throughout the lower 48 
states. I am a Kashia Pomo from Coastal Northern California and am also 
the interim chairman of my tribe, the Stewart's Point Rancheria. On 
behalf of NATHPO, we thank you for the opportunity to participate in 
this hearing on cultural resource issues in Mesa Verde National Park 
and other units of the National Park system.
    Indian tribes have been preserving and protecting their cultures 
for thousands of years, yet, the last 150 years have been some of the 
most devastating to Native people. Historic and misguided efforts by 
the Federal government to remove traditional Native cultures, prohibit 
the use of Native languages, and stop the practice of traditional 
healing ways, have left a wide swath of disruption from which most 
tribal communities have yet to recover. Traditional Native societies 
have been attacked and western governing models inserted with the end 
result of new, historic levels of unemployment and poor health 
indicators. It has been a long fight for Native people to remain true 
to themselves and their traditions and heritage and I am proud to be 
one of 124 Tribal Historic Preservation Officers in the country who are 
committed to preserving, protecting, and rejuvenating our respective 
cultures in agreement and partnership with the National Park Service.
    We welcome the opportunity to share our perspectives as well as 
provide helpful examples and suggestions for the Committee's 
consideration on how we can better preserve and protect tribal cultural 
resources. Our message is simple: Indian country needs to be at the 
table when issues affecting our ways of life are being considered and 
our voice needs to be heard. Should this be truly achieved, the 
National Park Service will have more fully fulfilled its core mission, 
will more accurately and vibrantly reflect the cultures of Native 
America and in return we will receive a boost in efforts to maintain 
our identities.
   the national association of tribal historic preservation officers
    NATHPO is a national not-for-profit membership association of 
tribal governments that are committed to preserving, rejuvenating, and 
improving the status of tribal cultures and cultural practices by 
supporting Native languages, arts, dances, music, oral traditions, 
cultural properties, tribal museums and cultural centers, and tribal 
libraries. NATHPO assists tribal communities to protect their cultural 
properties, whether they are naturally occurring in the landscape or 
are manmade structures. In addition to members who serve as the Tribal 
Historic Preservation Officer (THPO) for their respective tribe, our 
membership includes many other tribal government officials who support 
our mission and goals. NATHPO provides technical assistance, training, 
timely information, original research, and convenes an annual national 
meeting of tribal representatives, preservation experts, and federal 
agency officials.
    In 1998, the initial cohort of 12 officially recognized Tribal 
Historic Preservation Officers (THPOs) created NATHPO. In 2011, there 
are now 124 officially recognized THPOs whose tribal governments are 
responsible for managing over 50 million acres spanning 28 states. In 
addition to convening training workshops and national meetings, NATHPO 
provides technical assistance and conducts original research. Examples 
of completed research projects include:

  <bullet> Tribal Cultural Landscapes (in final editing 2011)
  <bullet> Federal Agency Implementation of the Native American Graves 
        Protection and Repatriation Act (2008)
  <bullet> Tribal Consultation: Best Practices in Historic Preservation 
        (2005)
  <bullet> Report of the NATHPO Tribal Tourism Toolkit Project: 
        Cultural and Heritage Tourism in Indian Country (2005)
  <bullet> A New Beginning for Equity and Understanding--National Parks 
        and Traditionally Associated American Indian Tribes, Report of 
        the Pacific West Region Summit of National Parks-Tribes-
        Conservation Organizations (2003)

    My testimony is organized into three sections:

          1. TRIBAL SPECIFIC ISSUES

                  a. THPO Program
                  b. Preservation Creates Needed Jobs and Revitalizes 
                Tribal Communities
                  c. Gathering of Traditional Plants Materials on 
                Public Land
                  d. Assessment of Actual Needs and Challenges Facing 
                Indian Country's Cultural Preservation
                  e. Tribal Needs and Challenges--Native American 
                Graves Protection and Repatriation Act (NAGPRA)
                  f. Tribal Cultural Landscapes
                  g. Tribal Parks

          2. TRIBAL-NPS ISSUES

                  a. NPS Regulations for Native Use of Traditional 
                Plant Materials
                  b. Co-Management of National Park Units
                  c. Revising Bulletin 38
                  d. NPS and Native Americans Working Together

          3. TRIBAL-FEDERAL GOVERNMENT ISSUE

                  a. Tribal Consultation
                         tribal specific issues
a. Tribal Historic Preservation Officer Program (THPO)
    In recognition and support of Indian Self-Determination and tribal 
sovereignty, the 1992 amendments to the National Historic Preservation 
Act, P.L. 102-575 (16 U.S.C. Sec.  470) (``the Act''), enhanced the 
role of Indian tribes in the national preservation program authorized 
by the Act and provided for greater protection of places of cultural 
significance to Indians and Native Hawaiian organizations. Toward that 
end, the 1992 amendments authorized the creation of a Tribal Historic 
Preservation Officer (``THPO'') program funded through the National 
Park Service, Historic Preservation Fund (``Tribal''\1\ line item).
---------------------------------------------------------------------------
    \1\ It is important to note that the ``Tribal'' line item under the 
Historic Preservation Fund includes both noncompetitive THPO funding 
and funding for a competitive tribal grant program. The entire 
``Tribal'' line item does not go to THPOs, and NPS determines how much 
THPOs and the competitive grant program will get each year.
---------------------------------------------------------------------------
    THPOs have the responsibilities of State Historic Preservation 
Officers (``SHPOs'') on tribal lands and advise and work with state and 
federal agencies on the management of tribal historic properties, as 
authorized under Section 101(d)(2) of the Act. As a policy matter, the 
establishment of THPOs has been an overwhelming success, allowing THPOs 
to work closely with federal agencies to assist them in complying with 
the Act on tribal lands, and at the same time allowing Tribes who have 
THPOs to develop the expertise to efficiently protect cultural and 
sacred resources that are vitally important to their identity as 
American Indians.
    At the local, tribal level, an efficient and well-working THPO 
program has been shown to be of great benefit to federal agencies. 
THPOs are not just another ``feel good program,'' rather they perform 
the important role of expediting all federal undertakings, including 
planning and construction of Indian Health Service clinics, tribal 
schools, water treatment plants, roads, energy development, and housing 
construction. Without a THPO in place, and without the federal funds to 
support their work--akin to that performed for National Environmental 
Policy Act (NEPA) compliance--many of these important development 
projects are delayed until the National Historic Preservation Act 
(NHPA) requirements are met, sometimes at great cost to all concerned 
parties.
    THPOs also preserve and rejuvenate the unique cultural traditions 
and practices of their tribal communities. In order to fully understand 
what the THPO programs are able to accomplish at the local level, here 
are a few examples of their work that goes beyond federal compliance:

  <bullet> All THPOs believe that their work is an active expression of 
        tribal sovereignty as they assume the state historic 
        preservation responsibilities for their respective tribal 
        lands.
  <bullet> THPOs have worked with hundreds of local Tribal elders for 
        history interviews. For example, the Spokane THPO was able to 
        purchase audio recording equipment to assist in preserving the 
        knowledge and experiences of their tribal elders. As for almost 
        all tribal languages, their native language is shared verbally 
        and is not in a written format.
  <bullet> THPOs actively work to preserve and protect historic 
        structures, including historic Bureau of Indian Affairs 
        schools. For example, the White Mountain Apache Tribe is 
        preserving and restoring the Fort Apache Historic District, and 
        the Navajo Nation is restoring their Capitol Complex that was 
        built in the 1930 by the Civilian Conservation Corps. The Yurok 
        Tribe in California restored one of its satellite offices that 
        was an original U.S. Forest Service Forestry Research Station. 
        The Lac du Flambeau Tribe in Wisconsin has embarked on a long 
        term effort to fully restore a tribal building that once served 
        as an Indian boarding school.

    Federal Support of the THPO Program:

    In furtherance of the modern federal policy of tribal self-
determination, tribes were authorized in the 1992 amendments to the 
NHPA to assume historic preservation activities and responsibilities 
with respect to tribal lands. In FY1996, tribal governments received 
the first congressional appropriations under this authorization for 
these activities via the Historic Preservation Fund (``HPF''). By 
comparison, states have been authorized and have been receiving funding 
under the HPF for over 40 years for historic preservation activities on 
lands within respective state boundaries, but those funds were rarely 
if ever utilized for tribal historic preservation activities, 
particularly on tribal lands, prior to the 1992 delegation of authority 
to tribal governments.
    Unfortunately, vitally important and successful THPO programs are 
severely threatened by lack of adequate funding to sustain them. THPOs 
received their first federal appropriations in FY1996. At that time, 
only 12 Tribes had established a THPO, with an average award of almost 
$80,000. By FY2005, 43 Tribes had established THPOs (an increase of 
350%), and the average award was down to approximately $44,000 because 
appropriations increased only 38% percent from inception of the THPO 
program. New THPOs further the purposes of the Act, but also dilute the 
pool of available funds for all tribes. As funding for each respective 
THPO program shrinks, they are less able to assist federal agencies 
with their preservation compliance responsibilities and perform other 
important tribal duties and functions.
    Since FY1996, the THPO programs have become very popular and 
successful with tribal governments. By FY2011, the THPO program has 
grown to 124 participating tribes. The NPS has stated that they expect 
131 THPO programs to be funded in the FY2012 cycle.
    In FY2001--the height of funding for state and tribal historic 
preservation--SHPOs started with a $385,000 base level support and 
THPOs with a $52,000 base level for each THPO in existence at that 
time. The average SHPO award in FY2001 was $850,209. The average THPO 
award was $154,815. States undertake very important historic 
preservation activities with their funding and tribes are not seeking 
to dilute that funding, but seek increases to their important tribal 
historic preservation activities as well.
    However, despite tribal government and NPS support, neither the 
annual Department of Interior budget requests nor congressional 
appropriations have increased the line item under HPF that supports 
tribal historic preservation in a way that keeps pace with increasing 
interest of tribes in taking responsibility for historic preservation 
duties under NHPA. Despite rapidly growing THPO programs and NPS 
support, funding remained relatively flat from FY2002 through FY2005, 
with a small but meaningful increase by Congress in FY2006 of $795,000, 
which was preserved in the President's FY 2007 budget request.
    One final illustration will indicate an important funding 
disparity: In FY2004, eight (8) U.S. territories received $2.68 million 
in HPF funding, and all 43 THPOs together received $2.25 million. 
Despite territories receiving more funding, the land base of the 8 
Territories was 2.93 million acres (from CIA factbook) and the land 
base of those 43 THPO tribes was about 30.1 million acres.
b. Preservation Creates Needed Jobs and Revitalizes Tribal Communities
    Heritage tourism in Indian country creates jobs, new businesses, 
builds community pride and can improve quality of life. THPOs play an 
important role in this planning process. Not only are tribal 
preservation programs asked for their input on important tourism 
endeavors, they are also involved in developing the important 
infrastructure necessary to bring visitors to tribal communities. THPO 
programs are thus an important part of a tribe's investment in local 
jobs, non-federal contributions, and long-term economic development. 
For example, the Nez Perce THPO has worked with soil and conservation 
districts for watershed restoration projects and livestock watering 
grants, reviewed Indian Health Service and U.S. Department of 
Agriculture projects needed for water and sewer improvements, and is 
involved in a myriad of transportation projects, including bridge 
replacements, repaving projects and bus station development.
c. Gathering of Traditional Plant Materials on Public Lands
    The use of plants is integral to the continuance of Native American 
cultural traditions. For example, plants are used as food and medicine, 
as well as playing an important role in the creation of ceremonial 
regalia and basketry. Plants are also integral to manufacturing other 
aspects of traditional culture, such as clothing, housing, and 
transportation (boats/canoes). Because Native American cultures and 
their use of natural products have evolved on this continent over 
thousands of years, traditional harvesting practices tend to not 
destroy, but rather enhance, plant population vitality.
    Past flawed policies of the Federal government has resulted in the 
serial reduction of tribal lands. Expansive territorial homelands were 
reduced to reservations, which were then--through the allotment era--
fractionated into small parcels with remaining lands given or sold to 
non-Indians. One result of this land reduction is that the resulting 
smaller parcels that are available to Native Americans do not contain 
the myriad of plant resources necessary to represent the full spectrum 
of a culture. Non traditional uses by lands no longer controlled by 
Native Americans have become subjected to practices that either remove 
or damage or destroy traditional plant communities. One remaining 
source of plant materials may now be found on public lands that have 
not been subjected to intensive land disturbance. Inevitably Native 
gatherers have relied on these public lands and that reliance has, at 
times placed traditional gatherers in conflict with non-native 
commercial gatherers or immigrants from other continents that have 
adapted their own foreign gathering traditions to the plant biomes of 
America.
    In recent years several federal agencies have developed policies 
that attempt to manage gathering activities of various user groups, 
including Native American gathering practices. The U.S. Forest Service 
and the Bureau of Land Management have such policies. It is anticipated 
that more land managing agencies will develop similar policies over the 
next decade. NATHPO is interested in advocating for such policies while 
being careful to ensure the recognition of the unique and fundamental 
relationships that Native Americans hold with the federal government 
and the sustainability and vitality of plant populations.
d. Assessment of Actual Needs and Challenges Facing Indian Country's 
        Cultural Preservation
    As stated earlier, Native Americans have been engaged in cultural 
preservation for thousands of years. For purposes of entering into THPO 
agreements with the NPS, it has only been in the past 20 years that the 
federal government was able to commit to work with Native people in 
preserving, protecting, and rejuvenating their cultures and lifeways. 
In 1990, the National Park Service, under NPS Director James Ridenour, 
conducted the first-ever national study--with funds appropriated by the 
U.S. Congress--directing the NPS to ``report on the funding needs for 
the management, research, interpretation, protection, and development 
of sites of historical significance on Indian lands.'' For the past 10 
years, NATHPO has been seeking to work with the NPS and other federal 
agencies in developing and conducting another such effort that could 
serve as a blueprint for future work, knowledge, and understanding.
         nathpo's leadership role to provide essential training
    Notwithstanding the need to take the pulse of Indian country in 
terms of overall cultural preservation needs, NATHPO has listened to 
our member tribes and has been offering training opportunities since 
1998. Our trainings assist Native Americans in building capacity, 
including supporting tribal leadership, members, and communities, and 
provides valuable knowledge and skills needed in today's world to 
preserve tribal history and traditions for the future.
    NATHPO's efforts are designed to fill a long-standing void of 
training opportunities in Indian country. This training void was first 
identified and studied in 1996 and was summarized in the National Park 
Service-funded report, ``Historic Preservation Training by and for 
Indian Tribes: Report of a Workshop on Tribal Needs & Priorities,'' 
that was contracted to the University of Nevada and Crow Canyon 
Archaeological Center. More than 20 years later, there is still a 
dearth of culturally appropriate training sessions.
    NATHPO has also been offering training via our National Native 
Museum Training program that was created in 2006 and is designed to 
expand the knowledge and skills of museum leaders, increase the number 
of trained native museum professionals, and strengthen the overall 
capacity of tribal museums. The trainings support tribal museums and 
cultural centers to preserve cultural resources within tribal 
communities and serve as a hub for community members to learn and 
connect the past with the present. As an outgrowth and response to the 
Institute of Museum and Library Services study that was published in 
2003, ``Tribal Museums in America,'' the program fills an important 
niche for Native American professionals.
e. Tribal Needs and Challenges--Native American Graves Protection and 
        Repatriation Act (NAGPRA)
    The Native American Graves Protection and Repatriation Act was 
enacted into law on November 16, 1990 (P.L. 101-601) to address the 
rights of lineal descendants, Indian tribes, and Native Hawaiian 
organizations to certain Native American cultural items, including 
human remains, funerary objects, sacred objects, and objects of 
cultural patrimony. The Act assigned implementation responsibilities to 
the Secretary of the Interior, including making grants to assist 
museums, Indian tribes, and Native Hawaiian organizations in fulfilling 
their responsibilities and opportunities under the Act.
    Many THPOs are also their tribe's ``NAGPRA representative\2\'' 
meaning they are part of the NAGPRA process and consult directly with 
museums and Federal agencies--including the NPS--which also administers 
the overall National NAGPRA Program. This tribal role requires detailed 
knowledge and skills prescribed by the act and the associated 
implementing regulations.
---------------------------------------------------------------------------
    \2\ Only one Federal law cites the need to name one tribal 
employee--the THPO--as the point of contact. There is no federally 
created ``NAGPRA representative.''
---------------------------------------------------------------------------
    As a result of successful repatriation efforts, many Indian 
communities have brought their relatives and ancestors home. Solemn 
ceremonies honor the return of these individuals: an honor that each 
family and community in the United States conducts for their dead in 
their own way. Also, resumption of ceremonial life can begin anew with 
the return of sacred, ceremonial items. Each repatriation enables 
Native communities to employ the objects and items that have been 
handed down for countless generations in teaching their younger 
generations not only the important role that these sacred items have in 
their Native culture but also the pride, responsibility, and honor that 
are associated with the profound duty of caring for and conserving 
these precious resources.
    Grants to Support Tribal NAGPRA Activities:
    Section 10 of the Act authorizes the Interior Secretary to make 
grants to Indian tribes and Native Hawaiian organizations for the 
purpose of assisting them in the repatriation of Native American 
cultural items and to make grants to museums to assist them in 
conducting inventories and preparing summaries. Over the years, the NPS 
NAGPRA program has been using funds from the grant program to cover 
some of their administrative costs with the result that fewer dollars 
are making it to the local, tribal level. The resources currently 
available to effect repatriations fall far short of what is needed. 
While the U.S. Congress and administration have appropriated funds to 
support the NPS NAGPRA program, overall, those funds have been 
inadequate to effectively address the mandates of the Act. Insufficient 
resources also prevent Native governments and organizations from 
maintaining a robust NAGPRA program effort needed to assure protection 
of a tribe's cultural resources. NAGPRA grants to Indian tribes and 
museums have decreased in the past five years, thus it is recommended 
that the program be substantially increased from its current level of 
$2.4 million for grants in FY2008.
   makah-nathpo report, federal agency implementation of the native 
            american graves protection and repatriation act
    In August 2008, the Makah Indian Tribe and NATHPO released the 
report, which is the first ever study and analysis of how federal 
agencies are complying with the Act. One of the major findings is that 
the Federal government neither assures compliance with nor enforcement 
of the federal law enacted to protect American Indian remains and 
funerary objects and to reunite them with their families and homelands. 
In some instances, agencies have withheld or changed information about 
the objects or human remains in their possession, in blatant disregard 
of the law, according to the report. The report also stated that while 
some federal agencies have good working relationships with Native 
Americans, many Indian tribes say federal agencies rarely made good-
faith efforts in contacting them about their collections. Tribes also 
have discovered that some of the federal agencies' official notices of 
cultural determinations have been withdrawn for unknown reasons and 
without consulting the tribes.
    Other report highlights:

  <bullet> Study only examined federal agencies--not museums. However, 
        it is estimated that museums hold at least eight times as many 
        human remains and objects as federal agencies. Using the 
        database of Culturally Unidentifiable Native American 
        Inventories Pilot Database as an example of the split between 
        Federal agencies and museums (as of 2007): There are 118,400 
        individual Native Americans listed and 828,641 associated 
        funerary objects inventoried by 627 museums and agencies in the 
        database. Federal agencies account for 13,785 of the overall 
        118,400 Native Americans and 66,407 of the overall 828,641 
        funerary objects.
  <bullet> The NPS has failed to enforce the mandates of the Act on its 
        fellow federal agencies and encouraged some federal agencies to 
        withdraw the pending Notices of Inventory Completion. Overall, 
        the NPS has withdrawn the most information from the entire 
        repatriation process by unilaterally deciding to withdraw 
        pending Notices of Inventory Completion (and thus, no 
        repatriation process). The Act requires each museum and agency 
        to provide notice directly to the culturally affiliated Indian 
        tribe or Native Hawaiian organization. However, since 1995 
        these notices have undergone increased scrutiny by the National 
        Park Service, resulting in delays; an unknown number of these 
        notices have been ``withdrawn'' by the National Park Service 
        without adequate notification to the culturally affiliated 
        Native American. Many of these pending Notices have been on 
        hold in the NPS administrative office in Washington, DC, since 
        1995-96 (over 13 years).

    The report also identifies these additional weaknesses for all 
Federal agencies:

  <bullet> Federal staffing to implement the Act is insufficient.
  <bullet> Federal officials responsible for implementing the Act are 
        inadequately trained.
  <bullet> Identifying the appropriate NAGPRA contact within each 
        agency is extremely difficult, thus making the repatriation 
        process even more burdensome for both tribes and federal 
        agencies.
  <bullet> There currently is no publicly available listing of which 
        agencies and museums have submitted summaries and inventories.
  <bullet> There currently is no standard for adequate consultation 
        with Native Americans.
  <bullet> Some agencies, like the Tennessee Valley Authority, 
        knowingly unearthed Native American remains in the 1930s and 
        simply listed the over 8,000 human remain as ``culturally 
        unidentifiable,'' thereby denying them a respectful burial by 
        culturally affiliating the remains.
  <bullet> Other agencies, like the Bureau of Land Management in the 
        Spirit Cave case, have listed human remains as ``culturally 
        unidentifiable'' despite the incredible amount of information 
        to the contrary that was provided at great cost by the 
        culturally affiliated Indian tribe.
  <bullet> While the Department of the Interior can investigate 
        allegations of failure to comply by museums, there is no 
        similar mechanism to ensure that Federal agencies comply with 
        the Act.
  <bullet> Compliance with the Act varies from agency to agency. There 
        needs to be some way to verify Federal compliance.

    The Makah-NATHPO report also called for the Government 
Accountability Office (GAO) to investigate federal repatriation 
programs, which has now occurred. The GAO released the following two 
reports:

          1. Native American Graves Protection and Repatriation Act: 
        After Almost 20 Years, Key Federal Agencies Still Have Not 
        Fully Complied with the Act (2010)
          2. Smithsonian Institution: Much Work Still Needed to 
        Identify and Repatriate Indian Human Remains and Objects (2011)
f. Tribal Cultural Landscapes
    Over thousands of years, Native American cultures have lived in the 
area now known as the United States. Resident plants, animals, natural 
and geologic features, weather patterns, geographic features and Native 
American long term manipulation of these landscape attributes have all 
contributed to sense and identity that is characterized as a homeland. 
When a young native child asks his or her grandparents who they are, 
inevitably the answer is to point to the landscape and its contributing 
attributes and to provide instruction on appropriate native relations 
to these attributes.
    The National Historic Preservation Act and various guidelines that 
inform regulations provide definitions for types of historic 
properties. One type of historic property, called a ``cultural 
landscape'' or ``ethnographic landscape'' was created in order to 
recognize the tendency of human cultures to evolve in holistic ways 
with landscapes broadly defined. The National Park Service Brief 36 
provides guidance on how to document Cultural Landscapes. The National 
Register of Historic Places and the National Landmark registries are 
replete with examples of ranch landscapes, mining landscapes and urban 
garden landscapes such as New York's Central Park or San Francisco's 
Golden Gate Park. However, the registries lack adequate representation 
of Native American cultural landscapes. This lack of representation has 
resulted in lack of education about Native cultures and practices and 
consequently, it has reduced the protection of these special places.
    Over the last several decades two new terms have been added to the 
historic preservation lexicon in order to bring more awareness to these 
broad places: Traditional Cultural Properties (see NPS Bulletin 38) and 
Sacred Sites (see American Indian Religious Freedom Act and Executive 
Order 13007: Federal Land Manager Sacred Site Protection). 
Unfortunately this additional awareness has also wrought confusion over 
what the similarities and differences of these three terms are and why 
three terms are needed when perhaps only one term will suffice. In very 
gross general terms Traditional Cultural Property literature puts less 
emphasis on objective documentation of the land and how specific 
cultures interact with the land and more emphasis on consulting with 
the cultural representatives who use and understand the land and 
demonstrating that a particular landscape feature remains vital to the 
continuance of traditional culture into current times. Sacred Site 
policy concerns under what conditions and manners federal land 
management agencies can allow or restrict access of the public or 
Native American practitioners to special places particularly for use in 
spiritual or religious purposes. It is the Cultural landscape concept 
and methods of documentation that most objectively provides 
understanding of what the landscape actually is by requiring 
identification of contributing elements or attributes. Understanding 
the components that go to make up a cultural landscape allows the most 
adequate means of developing Historic Property Treatment Plans that 
provide guidance for managing landscapes in keeping with traditions and 
in the face of an on-going federal undertaking.
    NATHPO advocates and stands ready to assist the National Park 
Service in melding the three concepts into one coherent concept.
g. Tribal Parks
    America' National Park Service is a means of protecting our special 
places that includes educating and interpreting those special places' 
natural and cultural qualities to the general public. As a result the 
National Park Service is a central participant in the Nation's heritage 
and eco tourism industries. State, counties, and cities also operate 
park systems that promote enjoyment and educational opportunities 
within natural and open settings. Other countries have representative 
spaces set aside for similar purposes. The NPS maintains a solid 
relationship with Parks Canada and the National Park System of Mexico. 
Likewise, several Indian tribes have developed their own parks. 
Examples include the nearby Ute Mountain Ute Tribal Park, Navajo Tribal 
Parks, and the Agua Caliente Tribe's Palm Canyon Tribal Park. Other 
tribes are in the process of establishing tribal parks or preserves. 
For example the Yurok Tribe is in negotiations with a timber company, a 
city, Redwood National Park and other land holders to cobble together a 
Yurok Tribal Park System that protects and manages resources for 
traditional usage and public education and recreation.
    While the Bureau of Indian Affairs may have some role in the 
establishment and partial funding of some of these tribal parks it is 
suggested that in recognition of tribal sovereignty the National Park 
Service establish a NPS program to assist in the establishment, 
operations and where appropriate (such as in areas where Tribal Parks 
and National Parks are in close proximity to one another) co-management 
of some or all of the involved parks, park related features and the 
resultant tourism opportunities.
                  tribal-national park service issues
a. NPS Regulations for Native Use of Traditional Plant Materials
    The NPS has fallen behind other federal land managers in allowing 
Native Americans to conduct traditional gathering of plant and mineral 
materials on the park lands that they now manage. This lapse, arguably 
inconsistent with the NPS mission, is partially due to regulations 
found at 36 CFR Part 2.1 that have prevented most tribal gathering 
except where either treaties explicitly allow gathering or specific 
Park enabling legislation allows gathering. Until these regulations are 
modified, some park law enforcement zealously prevent the Native 
American gathering while in other parks, Native gathering practices are 
ignored. Neither policy treats Native people in a respective manner and 
may very well create tension within park units and externally between 
tribes and park service personnel. This tension has existed since the 
1970's and there have been several attempts to revise the otherwise 
prohibitive ``gathering regulations.'' Recently NPS Director Jarvis has 
put in motion a path to revising the regulations. An NPS spokesperson, 
recently speaking on behalf of NPS Director Jarvis stated, ``Director 
Jarvis has deep experience working in parks where the ties between 
First Americans and the lands that are now parks have never been 
broken. He believes that maintaining those ties can nourish our 
landscapes while supporting native cultural traditions and providing 
opportunities for all Americans to better understand the history of 
America's first peoples.''
    The NPS wishes to revise the regulations to support long traditions 
of the original inhabitants and managers of National Park lands by 
allowing park superintendents to work in partnership and agreement with 
tribal governments to identify respective plant populations, methods 
and quantities of gathering and to establish mutually agreeable 
communication, access and monitoring protocols. The revisions make 
clear that this is to be done in recognition of tribal sovereignty, 
government to government relationship building and recognition of first 
nation/land manager statuses without opening parks to commercial 
gathering to all interested parties.
    While there are some critical of these proposed revisions, NATHPO 
reminds all of those involved that many of the landscapes fastidiously 
managed by NPS units are the vestiges of long term Native American 
gathering and related land management practices (e.g., the pristine 
Bald Hills of Redwood National Park would not be bald had it not been 
for thousands of years of Native American burning practices that were 
conducted in part to encourage plant re-growth to assure ample supply 
of materials vital to the continuance of Native material culture). 
Today, practices conducted by Redwood National Park staff mimics 
traditional burning mosaics and provides interpretation at its visitor 
centers concerning Native basket weaving and the role of fire in 
procuring good basketry materials. Yet traditional basket weavers 
cannot harvest the resultant plant growth. Should native plant 
gatherers go onto adjacent private lands they do so at risk to 
prosecution for trespass and theft and also expose themselves to 
harmful pesticides and herbicides. The NPS, in some instances, hold the 
best populations of plants for traditional practitioners.
    NATHPO applauds Director Jarvis's leadership fueled by his strong 
sense for the bond between Native people, their landscapes and 
particularly the plants that result from and play a vital role in the 
continuance of America's oldest traditions. NATHPO is available to 
assist in educating the general public and particularly those critical 
of the revisions. Once revisions are made, NATHPO is also ready to 
assist in facilitating a NPS-Native gathering program that provides 
benefits to Native cultures and people, enrichment of the education of 
park visitors, and ultimately meaningful caretaking of the landscapes 
that NPS now manages.
b. Co-management of National Park Units
    One significant method for addressing NATHPO's simple message of 
being included at the decision making table early and often is for NPS 
to embrace various co-management relationships with tribal governments, 
tribal parks and THPOs. While some are critical of the co-management 
concept or philosophy because they fear that tribal governments will 
usurp inherent federal decision making authorities, NATHPO suggests 
that the ``co'' of comanagement can mean many different things, all 
with positive connotations. For example the ``co'' can be for 
``collaborative'' relations or the co can be for ``coordinated'' 
operations. Co-management in whatever form of cooperative arrangement 
is simply a smart philosophy to pursue in these times of budget cuts, 
reduced staffing and resulting erosion of staff morale. NATHPO 
envisions a future where a tribal park superintendent shares office 
space with a National Park superintendent; a place where a critical 
animal population that does not recognize park or reservation 
boundaries is researched and managed seamlessly with coordinated 
budgets, staff and research agendas that avoid duplications or 
contrasting recommendations; or a time when a combined park employee/
tribal young adult trail crew build a trail available to the general 
public that connects tribal lands with National Park service lands; or 
where a National Park superintendent and staff negotiate with a tribal 
government over an agreement to allow traditional gathering and 
interpretation of a particular plant. There are successful models that 
exist internationally (e.g. aboriginal roles in Australia National 
Parks/Preserves). There are several ongoing and emerging examples in 
the U.S. National Park Service such as Canyon De Chelly, Grand Portage 
Rapids, Pipestone National Park and the south unit of the Badlands. 
NATHPO urges that more relationships are explored that move beyond the 
realm and practice of ``consultation'' to the realm of true ``co'' 
stewardship of the lands and the plants, animals, other resources and 
people that are sustained by such lands regardless of ownership, 
boundaries or authorities.
c. Revising Bulletin 38
    An issue that is related, yet different from the tribal cultural 
landscapes discussion above, is the possible revision of NPS Bulletin 
38, Guidelines for Evaluating and Documenting Traditional Cultural 
Properties. The document was authored in 1990 and was last revised in 
1998 and is currently being considered for further revisions. While 
NATHPO has heard from key Park Service staff that the Bulletin is in 
need of revisions and agrees that it should be, the process to move 
forward is still being developed. At least one NATHPO member tribe has 
requested that the NPS conduct consultations with Indian tribes prior 
to making revisions to assure that such changes will be embraced by 
tribes and that all aspects of the document are discussed. NATHPO also 
supports an effort to alleviate any confusion that may currently exist 
about the similarities and differences of Traditional Cultural 
Properties, Cultural and Ethnographic Landscapes and Sacred Sites. 
NATHPO has expressed to the National Park Service our interest in 
working together in this revision with the goal of improving the 
process so that Indian country may most effectively and expeditiously 
preserve and protect their respective historic properties.
d. NPS and Native Americans Working Together
    The discussion of the NPS working together with Native Americans 
also should include work force issues and opportunities. 
Notwithstanding the fact that many Indian tribes are located in close 
proximity to national park units, there are few structured efforts to 
encourage Native American participation, including employment. There is 
a need for a supported and prolonged effort to recruit and train Native 
American staff to work within the NPS, whether as rangers, or within 
the museums and visitor centers located throughout the country. 
Recruiting and supporting Native people in these fields has been slow 
and needs a influx of attention and resources to make viable career 
options. It has been encouraging to witness Native American involvement 
in park Interpretation and there are many park units that would benefit 
both Native Americans and the visitor experience to our nation's park 
units.
                    tribal-federal government issue
a. Tribal Consultation
    One process spans the entire Federal government spectrum: the need 
for open and transparent tribal consultation protocols. The Obama 
administration has tasked each federal agency with developing and 
sharing their tribal consultation process. Without such information, 
Indian country will continue to be in the dark when it comes to initial 
and final decision making on issues that directly affect Native peoples 
and their cultural traditions.
                           closing statement
    During the 2009 NATHPO membership discussion on priorities to be 
considered by the incoming administration, one issue that applied to 
many federal agencies was the need to ``enhance and promote the Native 
voice in all aspects of historic preservation at all levels of 
government.'' This sentiment continues to be true today. The THPO 
program has demonstrated its positive effect--both at the tribal level 
and at the federal level--yet its existence is threatened by the lack 
of federal support. Another important federal law enacted for the 
benefit of Indian country, the Native American Graves Protection and 
Repatriation Act, is beset with issues that impede full Native American 
participation. Yet, as described above, if Indian country was 
encouraged and supported to fully participate as partners with the 
National Park Service, significant challenges to tribal cultural 
preservation may be overcome. Perhaps in the next 20 years, Native 
American people will be allowed to gather plant materials from lands 
now managed by the NPS in a continuation of a practice that dates back 
thousands of years. Perhaps the next generation will be allowed to 
express their history from their own points of view and be a present 
part of the story for park visitors who want to hear the authentic 
story of tribal connections to natural and cultural resources. There 
are many challenges but our resolve and vision to be part of the story 
is encouraging for me and I hope that you will support us.

    Senator Udall. Very legitimate and--concerns you have. But 
thank you for that testimony.
    Dr. Dethloff, you're presence is important. Thank you for 
being here representing an important stakeholder institution. 
The floor is yours. We look forward to your testimony.

STATEMENT OF GAIL DETHLOFF, DIRECTOR, CENTER FOR PARK RESEARCH, 
    NATIONAL PARKS CONSERVATION ASSOCIATION, FT. COLLINS, CO

    Ms. Dethloff. Thank you.
    Mr. Chairman, I'm with the Center for Park Research at the 
National Parks Conservation Association.
    NPCA is a non-profit, non-partisan, association dedicated 
to the protection and enhancement of our National Park system. 
The Center for Park Research provides information on research 
conditions throughout the system. We appreciate this 
opportunity to testify because our research shows cultural 
resources in our National Parks are in some jeopardy. In 91 
percent of the parks we surveyed we found cultural resources 
were in fair or poor condition.
    The National Park system encompasses an extraordinary 
portfolio of American culture. The National Park Service 
through its stewardship of these sites and its national role in 
preservation activities is the closest thing the U.S. has to a 
heritage ministry. As the Senator noted, one finds in the Park 
System nearly 27,000 historic buildings, an estimated 2 million 
archeological sites and 123 million museum and archival pieces. 
Of these sites, stories and programs the agency oversees it 
largely governs how our cultural--how these cultural resources 
are managed. Support was gained from the Administration in 
Congress has a strong bearing on this governance.
    Over the past decade our Center has staffed of 
preservationists, historians and anthropologists assess the 
condition of heritage properties and collection in 77 parks. To 
assess the condition of cultural resources we employ the 
methodology based on NPS's own Cultural Resource Management 
Guideline. Our findings were recently published in the State of 
America's National Parks.
    Cultural resources in parks generally do not fare well 
overall. In parks established primarily to protect such 
resources, they do fair better relatively speaking. While we 
did not assess Mesa Verde, it is our country's flagship 
archeological park. Its extensive research programs, 
preservation leadership and the curatorial work indicate a high 
level of adherence to the Cultural Resource Management 
Guideline and correspondingly healthy resource conditions.
    Our research shows, however, that Mesa Verde is an 
exception, not the norm. The history of inattention to cultural 
resources and inadequate funding have led to decisions that 
have slighted cultural resources in the system. Across 
disciplines with designations parks struggle to identify 
documents, maintain and monitor them. Our National Parks don't 
have enough professional staff to take care of cultural 
resources. They often lack the funds to pay for materials to 
keep them in good condition.
    To expand on this, if you don't know what you have or what 
condition it is in, how can you protect it and share it with 
others?
    All the parks we assessed lacked cultural planning 
documents. For example nearly half of them had no historic 
structure reports to guide the preservation and maintenance of 
buildings listed on the National Register. Olympic National 
Park had virtually all of its archival collections un-cataloged 
when we assessed it.
    When information is available on what resources are listed 
at the park--and get them to preserve and interpret them. A 
good example of this is here at Mesa Verde where a structural 
stabilization crew works to maintain cliff dwellings with 
thorough documentation guiding that crew. Yet cultural 
resources staffing has fallen nearly 25 percent in the past 10 
years. Even in a major cultural park like Appomattox 
Courthouse, cultural resources management has occasionally been 
regulated to the level of collateral duties with staff getting 
to it when they have the time. Maintenance and monitoring fall 
by the wayside when staff are absent.
    For example at Big Bend there is no annual monitoring 
program for historic structures when we assessed them. All of 
the staff are critical to preserving these places for current 
and future Americans. It takes money to pay for those staff--to 
maintain them.
    NPS cannot currently track the cost of bringing all of 
those cultural resources into good condition. Only for historic 
structures do we have a ballpark figure currently estimated at 
$2 billion. The current rate of funding and the construction 
budget doesn't allow the parks to keep up. Construction 
conditions can worsen when maintenance is delayed.
    With all of that said, the challenges to cultural resource 
stewardship obviously is serious, but they are not 
insurmountable. In a number of parks, NPS is doing an exemplary 
job. For that we commend them.
    NPC makes the following recommendations for improving 
cultural resource conditions in the National Park System.
    NPS should establish and Congress should fund a Cultural 
Resources Challenge that enables the agency to work effectively 
on management and preservation to bring America's stories 
completely to life.
    NPS should continue programs that address the basic needs 
of completing baseline documentation of cultural resources, 
providing staff training and providing access to technical 
expertise.
    NPS should better utilize partners to acquire baseline 
information which would alleviate urgent needs and help parks 
to identify which resource specialists they need over time.
    Congress can encourage community links to park resources by 
supporting public transportation enhancements to better connect 
parks and revising certain regulations to simplify historic 
preservation tax credits for rehabilitation of park historic 
structures.
    NPC thanks you for the opportunity to address the Committee 
today. Given a long history of inattention to cultural 
resources we applaud your leadership in calling this hearing.
    Here at Mesa Verde it is apparent what can be achieved. It 
is a global icon attracting half a million visitors a year. 
That that it is a dynamic economic engine for the entire 
region. NPS staff are on the front lines in caring for our 
history. But we are all responsible for safeguarding these 
irreplaceable pieces of it.
    Thank you.
    [The prepared statement of Ms. Dethloff follows:]
    Prepared Statement of Gail Dethloff, Director, Center for Park 
   Research, National Parks Conservation Association, Ft. Collins, CO
    Mr. Chairman and members of the subcommittee, I am Dr. Gail 
Dethloff, Director of the Center for Park Research with the National 
Parks Conservation Association (NPCA). NPCA is a nonprofit. nonpartisan 
organization dedicated to the protection and enhancement of our 
National Park System, with 344,856 members nationwide. Since 1919, NPCA 
has been the leading voice of the American people on behalf of our 
national parks. We are happy to have this opportunity to testify today 
because our research clearly shows that the state of cultural resources 
in America's national parks is jeopardized by major challenges, 
including challenges in funding and management.
    NPCA's Center for Park Research provides accurate, comprehensive 
information and analysis on resource conditions throughout America's 
National Park System. The Center's professional staff has expertise in 
areas such as ecology, environmental quality and monitoring, historic 
preservation, anthropology, and environmental history.
    Over the past decade, the Center evaluated natural and cultural 
resources at 80 national park units. Of these 80, the Center for Park 
Research assessed the condition of park heritage properties and museum 
and archival collections in 77 parks. NPCA researchers consulted 
National Park Service (NPS) cultural resources databases, examined 
reports and studies produced by or for the Park Service, visited parks 
in person, and conducted interviews with park and regional staff. When 
assessing the condition of parks' cultural resources, we employed a 
methodology based on the National Park Service's own Cultural Resources 
Management Guideline. The methodology analyzed the condition of 
archaeological properties, museum and archival collections, cultural 
landscapes, ethnography, and historic structures, and the status of 
historical research. Our findings were published this summer in The 
State of America's National Parks. The data we collected and the 
summary report provide the basis for this discussion of cultural 
resources in the National Park System.
    The National Park System encompasses an extraordinary portfolio of 
significant American culture. More than 65 percent of national park 
units were designated to preserve places where the North American story 
took place, from prehistoric times to the present. Across all 396 
national parks one finds nearly 27,000 historic buildings, 3,500 
historic statues and monuments, an estimated 2 million archaeological 
sites, and 123 million museum objects and archival documents--
collections bested only by the Smithsonian Institution's assemblage of 
museums. Here at Mesa Verde exist more than 4,000 archaeological sites, 
including 600 cliff dwellings, which provide an astonishing record of 
the life of the Ancestral Puebloan people who lived here a thousand 
years ago, whose descendants still live here in the Four Corners region 
and along the Rio Grande. Mesa Verde has a unique set of resources but 
the park is one of a number preserving the historic cultures of the 
Southwest. Most of the major battlefields associated with the American 
Civil War are managed by NPS, and by virtue of the sites the agency 
manages and the stories it interprets and preserves, NPS is one of the 
largest stewards of African-American, Latino, Indian, and Asian-
American history in the country. In addition, the Park System preserves 
sites fundamental to understanding social forces such as westward 
movement, industrialization, and the quest for equal rights for all 
citizens.
    The National Park Service is the closest thing the United States 
has to a heritage ministry. As the steward of these sites and through 
its federal matching grants for preservation activities, its technical 
expertise, and its management of a federal tax incentives program 
valued at more than $2 billion in private investment each year, the 
Service governs how our country's cultural resources are managed. The 
support received from the administration and Congress has a strong 
bearing on this governance.
    With robust preservation management and activities, Americans have 
amazing opportunities to understand where we've been as a people and 
how our heritage affects where we are going.
    The National Park Service has been charged with protecting our 
nation's most important historic sites since its beginning in 1916, and 
works to do so under legislative mandates such as the Antiquities Act 
(1906), the National Historic Preservation Act (1966), the 
Archeological Resources Protection Act (1979), and the Native American 
Graves Protection and Repatriation Act (1990). The agency developed its 
most recent set of standards to guide the management of cultural 
resources in the late 1990s. Devoted and talented people from cultural 
resources disciplines are attracted to working in our national parks 
because the parks represent the most important parts of our heritage, 
with the highest standard of preservation. We ourselves used NPS 
guidelines to shape the methodology we used in assessments and we found 
that closer adherence to the standards appeared to result in better 
resource condition. In parks established primarily to protect cultural 
and historic resources, these resources do fare better, relatively 
speaking. While we did not assess Mesa Verde, it is our country's 
flagship archaeological park, and its extensive archaeological research 
program, preservation leadership, and the curatorial work being done to 
move the collections to the new Visitor and Research Center indicate a 
very high level of adherence to the Cultural Resources Management 
Guideline and correspondingly healthy resource conditions.
    But there is also, in the history of the park system, a history of 
inattention to cultural resources and their management in many places, 
especially parks established to preserve natural and scenic resources, 
and small parks with less visually spectacular but still vitally 
important cultural resources. Our research shows that a systemic 
attitude that heritage preservation should play second fiddle to 
natural and scenic wonders and overall inadequate funding for the 
system have led to decisions that have slighted cultural resources. Our 
parks struggle with an inadequate baseline understanding and inventory 
of resources, a shortage of professionally trained staff, and a lack of 
funding that have caused overall cultural resources condition to be 
considered ``fair'' or ``poor'' at 91 percent of the parks we surveyed.
                          interrelated issues
    The problems affecting cultural resources occur across park 
designations and across regional divisions. But they are not 
insurmountable; they are understandable and can be addressed. And there 
are good examples of NPS staff finding solutions to the problems, which 
can serve as a path forward from where we currently stand.
    The first step in cultural resources management is to identify, 
evaluate, and document the properties and collections in the Park 
Service's care. This baseline documentation of resources is the key to 
next steps. Unidentified and unevaluated resources simply cannot be 
appropriately preserved, protected, or interpreted. At Rocky Mountain 
National Park, which the Center assessed in 2002, we noted a need for 
historic structures resource studies and condition reports, and in the 
intervening time, park staff worked through the Cooperative Ecosystems 
Studies Unit to contract with local universities to complete those 
documents. With that information in hand, park staff had documentation 
on what they have, what threatens it, and what the next steps are for 
protecting and preserving the resource. However, all parks the Center 
assessed lacked cultural and heritage planning documents (such as 
comprehensive interpretive plans, historic resources studies, 
ethnographic overviews and assessments, cultural landscape reports, and 
collection management plans) in one or more disciplines. Because these 
research and planning documents inform a park's larger planning 
documents, processes, and decision-making, their absence means that 
cultural resources continue to be ignored as park managers determine 
how to spend limited time and money. Simply put, unless park managers 
seated at the planning table have authoritative proof of the importance 
and condition of cultural resources in their park, those resources are 
not taken into account when decisions about park priorities and budgets 
are made.
    With the information in hand on what resources exist at the park 
and what may threaten them. NPS staff with appropriate expertise on 
specific resource types can take the necessary steps to protect, 
preserve, and interpret them. At Mesa Verde. a structural stabilization 
crew of professional archaeologists and stone masons work together to 
maintain the cliff dwellings and archaeological structures. Al park 
sites with brick-and-mortar fortifications (e.g., Fort Sumter, Fort 
Pulaski, Fort McHenry, Dry Tortugas (Fort Jefferson), Gulf Islands 
(Fort Pickens), Golden Gate (Fort Point)). the presence of a historical 
craftsperson. such as a mason, is essential to properly caring for 
properties. However, cultural resources staffing has seen a significant 
decline (> 25%) in the past 10 years, and even in a major cultural park 
like Appomattox Court House National Historical Park, cultural 
resources management and historic preservation have been relegated for 
periods of time to the level of collateral duties.
    Very few parks assessed by the Center either had on staff or had 
access to in the Regional Office the unique complement of professionals 
needed to do the job. For example, of the parks assessed by NPCA, 65 
percent lacked the minimum professional staffing needed to oversee 
museum and archival collections and address the growing backlog of 
museum objects. When it comes to these situations, even a single staff 
person can have a significant impact. At Lake Clark National Park and 
Preserve, an archival technician with a three-year position 
significantly decreased the percentage of uncataloged items, even as 
the collection more than doubled in size, making these materials easily 
available for park staff and other researchers for the first time. When 
experts are present, they are finding it more and more difficult to 
stay current with training, education, and participation in the 
scholarly arena. These personnel need training and education that allow 
them to apply relevant, up-to-date scholarship to understanding and 
interpreting our nation's stories. When it comes to caring for the 
prehistoric and historic places, monuments, and museum collections in 
the Park Service's care, there is no higher priority than 
professionally trained staff.
    Having baseline documentation and professional staff on hand are 
also primary factors in implementing appropriate oversight and 
monitoring of America's cultural heritage. When resources are 
catalogued and identified, they can be maintained and guarded in a 
cost-effective manner. At Capitol Reef National Park in Utah, there is 
adequate staff to conduct annual monitoring of the park's 25 historic 
structures, and the data are kept up-to-date in the List of Classified 
Structures. Comprehensive condition assessments for each structure are 
performed every five years, and all structures have been evaluated for 
eligibility for listing in the National Register of Historic Places. 
Any adverse changes in condition would be noted and could be addressed 
in a timely manner. But regular monitoring is the exception rather than 
the rule. In a more extreme example, at the time of our assessment, Big 
Bend National Park in Texas had no annual monitoring program in place 
for historic structures, even though the park has 69 structures either 
listed on or eligible for the National Register of Historic Places. At 
Big Bend, due to a lack of staff and competing management priorities, 
inspections of historic buildings are conducted on a five-year 
rotational cycle only for the most heavily visited or publicly 
accessible structures.
    Documentation and personnel are also important in the maintenance 
of the most visible of cultural resources in many parks, the historic 
buildings and structures. If the structures have no documentation to 
guide treatment, or their condition has not been monitored, park staff 
can only guess at the work that is needed. But, because of the dollar 
amounts involved, the construction budget for the Park Service itself 
has become an over-riding factor when it comes to the condition of 
these resources. Currently, the deferred maintenance cost for historic 
structures in the park system is estimated at 52 billion. Certain parks 
have taken innovative approaches to preserving their structures, even 
in the face of declining budgets, by taking actions such as partnering 
with community organizations to maintain and use park structures. For 
example, Valley Forge National Historical Park in Pennsylvania has had 
great success leasing one of its historic properties to a local 
Montessori school. While the property is historic, and therefore the 
park has an obligation to preserve it, it is not part of the park's 
main interpretive theme, and the park had no interpretive or 
administrative use for it. But other parks are struggling with 
structures whose conditions continue to worsen as maintenance is 
delayed. Alcatraz Island in Golden Gate National Recreation Area has 
benefited from rehabilitation work on one of the two remaining guard 
towers and seismic retrofitting of the Cellhouse, but other structures 
such as the New Industries Building and the Sallyport of the guardhouse 
through which all visitors enter are visibly deteriorating.
                              ways forward
    In a number of instances, NPS is doing an exemplary job of 
preserving and protecting the historic places and artifacts in its 
care, and for that we commend them. Championed by loyal and dedicated 
NPS professional staff, the task of fulfilling the agency's statutory 
mandate to preserve these places unimpaired while providing for the 
enjoyment and benefit of these places by the American public has become 
an ever-increasing challenge.
    But striving for that mandate provides the excellent opportunity to 
connect all Americans with ``America's best idea.'' Given its analysis 
of resource condition information, the National Parks Conservation 
Association makes the following recommendations for improving cultural 
resource conditions in the National Park System:

Recommendations
  <bullet> NPS should establish and Congress should fund a Cultural 
        Resources Challenge that enables the agency to work effectively 
        on cultural resource management and historic preservation in 
        the parks and through its programs. NPS should address long-
        term solutions to problems in cultural resources preservation 
        and protection and leverage such funding through partnerships. 
        This will greatly enhance the level and type of resources 
        devoted to cultural resources preservation.
  <bullet> NPS should continue internal programs such as the System-
        wide Archeological Inventory Program (SAIS), the Preservation 
        and Skills Training (PAST) program, and the Ruins Preservation 
        Team based out of Mesa Verde. These programs address the basic 
        needs of completing baseline documentation, providing staff 
        training, and providing access to technical staff identified as 
        fundamental issues in preserving cultural resources. The 
        programs should also he used as models for solutions across 
        cultural resource disciplines.
  <bullet> NPS should better utilize partners such as the Cooperative 
        Ecosystem Studies Units National Network to acquire technical 
        baseline information that all parks need on cultural resources. 
        This could include educating NPS staff that Network 
        universities or other partners are available to work on 
        cultural resources. Work through such partnerships would 
        alleviate urgent needs and help parks to identify which 
        cultural resource specialists they need over time at the park 
        or regional level.
  <bullet> NPS should encourage the involvement of community partners 
        in preserving and interpreting cultural resources. Congress 
        should assist in this process by removing barriers to this 
        involvement through such actions as supporting public 
        transportation enhancements to help volunteers get to parks 
        easily, and revising tax and other regulations to make it 
        possible for community partners to take advantage of historic 
        preservation tax credits for rehabilitation of park historic 
        structures.
  <bullet> The National Park Service should incorporate cultural 
        resource management concerns in all considerations of 
        institutional capacity. The National Park Service Director, all 
        associate directors, regional directors, superintendents, and 
        others must take full responsibility for cultural resources in 
        the System. The National Park Service should establish a 
        Cultural Resources Advisor to the Director of the National Park 
        Service as a complement to the existing Science Advisor 
        position.

    The National Park Service holds in trust for the American people 
the places, artifacts, and stories that form our collective heritage. 
If we are to continue to understand, appreciate, and learn from our 
heritage, NPS must have the tools and resources it needs to keep those 
places open to the public in safe and historically accurate condition, 
to keep the artifacts on display in appropriate settings accessible to 
all, and to share those stories in meaningful ways that are relevant to 
Americans today. NPS staff are on the front lines in caring for our 
history. but we are all responsible for safeguarding and preserving 
these irreplaceable pieces of who we are as a people and a nation.
    Given the long history of inattention to cultural resources, NPCA 
applauds this Subcommittee's leadership in seeking insight and 
perspectives from various knowledgeable panelists on the significant 
threats and challenges facing these precious resources in our national 
parks. Here at Mesa Verde, it is apparent what can be achieved with 
dedicated and highly skilled park staff working with strong partners. 
This is an extraordinary place. It is a global icon and a source of 
great pleasure and enjoyment for half a million visitors each year from 
all over the world. It is also a dynamic economic engine that provides 
a source of livelihood for the entire region. Thank you for the 
opportunity' to provide this testimony.

    Senator Udall. Thank you, Dr. Dethloff. Thank you to all of 
you on the panel.
    Let me direct my initial question to you, Doctor. You 
surveyed many, if not all, of the National Park units and you 
perform an important function. We thank you for that.
    Is it your sense that other historic and cultural parks 
create similar local economic benefits and opportunities as was 
the case here?
    Ms. Dethloff. I know that we have done economic studies at 
San Antonio missions and at Colonial National Historic Park. In 
those cases there has been a definite economic value associated 
with the parks.
    The San Antonio missions, economic activity was estimated 
at almost $99 million coming from that park throughout the 
surrounding area supporting over 1,000 local jobs.
    Colonial National Historical Park was also a driver. That 
is the historic triangle that is Williamsburg, Jamestown and 
Yorktown. So in that area there was seen to be $42.5 million in 
visitor spending in 2010. Visitation to that park supported 
that many millions of dollars in visitor spending. There's an 
estimate of over 1,000 local jobs coming from that economic 
activity.
    Senator Udall. I think you can understand why I keep asking 
that question. It's both because I want to draw attention to 
the economic benefits of the parks, but I also want to look at 
ways to generate additional local and private sector support as 
well as government support to protect cultural and historic 
resources.
    Is San Antonio Park, is that the Alamo?
    Ms. Dethloff. No, the Alamo is actually a private 
foundation, I believe.
    Senator Udall. OK.
    Ms. Dethloff [continuing]. That manages it. It does not 
include the Alamo.
    Senator Udall. I'm a lawyer so I can ask questions I don't 
know--I'm not a lawyer so I can ask questions I don't know the 
answer to.
    [Laughter.]
    Senator Udall. But, you know, thank you for sharing some of 
those other parks and their statistics.
    Let me turn to Chairman Hayes to you, if I might. As you 
mentioned one of the big challenges is finding adequate funding 
to protect cultural resources. We've got a tough budget 
situation. Finding additional funding will be difficult within 
the short term. I'm hopeful, by the way, that we will find a 
way forward and our economy will return to a robust condition 
and then we can look at making investments on the government 
side.
    Other than finding more money, what do you think is the 
most important thing we need to do? I know you talked about 
coordination on the part of the Park Service with Indian 
Country. But what else is on--what would be on your list or 
underline that further, if that's the most important thing we 
could do.
    Mr. Hayes. OK. One of the things that we talked about is 
participation and funding at the levels that were mentioned 
earlier and about State funding--actually getting tribes 
engaged and that those resources to help protect. You know, 
with this economy that we're facing today, you know, with the 
shortfalls and all that with the resources. I always tell 
people, welcome to Indian Country because Indian Country has 
been facing this for decades.
    We've been able to utilize resources. That's why it's 
important that I believe that the government utilize the tribes 
as an asset to be able to maintain to be an example. Indian 
Tribal Park is partnering up and establishing a relationship. 
We could utilize that also. It's to build economic development 
here in this area. Partnering up with the tribes is important 
to be part of that.
    As you know you need to generate revenue to all--and that's 
why I think it's important to tap into the tribal resources and 
help as a partner in making sure that we protect our resources 
that are here.
    Senator Udall. One of my take a-ways already from the 
hearing is to work with you to better understand how we can 
leverage what you just described.
    Mr. Hayes. I just want to say one thing.
    Senator Udall. Please.
    Mr. Hayes. For--service and I was in the Navy too. I spent 
25 years in the Navy. I retired. So----
    Senator Udall. This is something watching a sailor and a 
Marine shake hands.
    [Laughter.]
    Senator Dyer. But until we learn to walk on water, we need 
the Navy.
    Mr. Hayes. I always tell the Marine Corps, say look at your 
emblem here and what's the thing on top? Department of the 
Navy.
    Senator Udall. Alright, now settle down.
    [Laughter.]
    Senator Udall. Now there's actually an enormously 
synergistic relationship between the Navy and the Marines.
    Mr. Hayes. That's the type of relationship.
    Senator Udall. That's a great--yes. I like that metaphor.
    Let me turn to Jim on that note.
    On the drive in here I noticed that both the new visitor's 
center, it's under construction, and the current `Far View', 
which I like your term of phrase, that it was too far. I know 
the Foundation has been involved with the transition of the old 
visitor's center. Will you tell us more about what's going to 
happen to the Far View Visitor Center?
    Senator Dyer. It's going to become a tribal center with 
each of the 24 tribes having a slice of the pie in there. It's 
a cultural center as opposed to a tourist center. We're--we've 
shifted since the 20 million came from the, I don't want to use 
the word stimulus.
    Senator Udall. American Recovery and Reinvestment Act.
    Senator Dyer. That's what it is. Thank you.
    So that took care of that. We've shifted our focus into 
rebuilding Far View into the Tribal Cultural Center.
    Senator Udall. That's an exciting development. I look 
forward to having a chance to visit that center when it's 
completed.
    Will that be done in the next couple years? I imagine it's 
not easy.
    Senator Dyer. This place doesn't open until next October, 
the one that's down by the highway. So we'll shift using the 
shift targets. We've already shifted at the Foundation into 
kind of looking for funding for that.
    Senator Udall. Jim, thank you for that, for your leadership 
and your love of this special place.
    Let me turn if I might to Ms. Krauss. I'd give you an 
opportunity to share a few more of your thoughts on ways to 
improve preservation of and education about our cultural 
resources.
    Ms. Krauss. Thank you very much.
    One way that I don't think it would cost a lot of money is 
for the Park Service to work with Indian tribes and updating 
and promulgating regulations on the gathering of traditional, 
kind of, mineral materials on lands that are now managed by the 
National Park Service. Native people have been the only 
cultures that have been on U.S. soil for thousands of years. 
Some might say time immemorial, but, you know, scientifically 
thousands of years.
    So there's no denying the fact that Native people have been 
managing the land for thousands of years. Doing so quite well 
in terms of making sure that in the past, you know, lands that 
have been suffered from sea areas, wildfires because of lack of 
management over the years. So right now there is some proposal 
to upgrade the regulation so that Native people could gather 
plant materials for food, medicine, ceremonial objects, the 
need for ceremonial canoes would require a large redwood tree. 
I mean that type of experience. I think that is a crucial 
element of Native American cultures today.
    It actually inspired some kind of--with Native people that 
they don't need to, you know, ask for any special permission. 
That it was always their right to gather these materials. It's 
only been recently that they were told they can't. So try and 
bridge that gap in terms of making sure that the respect that 
should be afforded Native people to gather, to use plant 
materials, instead of having to go through any enormous 
challenges.
    So that's one thing that's on the table. I just want to go 
back to Tribal parks. I think that's a great economic model. I 
think for the Subcommittee on National Parks, the Tribal parks 
have a great opportunity to prove their additional land from 
any major development. I know that they've done quite well here 
in Colorado.
    The Agua Caliente Tribe in Palm Springs has a significant 
park. They're a great success story. They train tribal rangers. 
They have tribal employees who are responsible for enforcing 
the tribe's quality and codes there.
    It would be great, for example, for there to be an exchange 
of tribal rangers with National Park Service rangers to share 
their cultural understandings and learn a lot from each other. 
Just some examples.
    Senator Udall. Thank you for those examples.
    I'd like to build on that in a related way and give each of 
you a chance to talk about what your organizations are doing to 
encourage young people to be involved with our National Parks. 
It's not only something that makes us feel good but it's a 
responsibility that we have to future generations. We didn't 
inherit the Earth from our parents. We're actually borrowing it 
from our children.
    But we need to share with them what it is that we borrowed 
from them so that they can then keep faith with their children, 
which we hope that they continue on.
    Mr. Hayes. I think as we talk about the partnership. I 
remember in the 1970s we used to have tribal members come to 
the park and police here, the gate that was here. That hasn't 
happened for quite a long time. That whole region was on a 
summer program we called the Bushwhacker program for young 
children to give them an opportunity to go to a tribal park and 
visit and just have an understanding.
    One of the things that we've been talking with the district 
is our educational curriculum, this thing about cultural 
language. To be able to maybe come up with a curriculum or who 
would identify Mesa Verde as historical and the value that's 
here. Meaning the people we would--and I think a lot of times 
educating both tribal members and non-tribal members, it would, 
at that generation at their level. We will build a stronger 
relationship than we have in the past.
    I think that's something that needs to be talked across the 
board and probably in the State of Colorado because that's one 
of the things that we've been always advocating is to look at 
the, not only the use of the Native Americans in the school 
curriculum but what they offer. I think this is another avenue 
to mention about the center down here of educating the general 
population and the world. I mean, we get many, many foreigners 
coming into our Tribal Park. We don't advertise. We just 
maintain in a respectful way.
    As was mentioned by Ms. Krauss, you know, we do know how to 
take care of our resources. By helping us do that and 
identifying and working with Terry and many of our tribal 
leaders we can have preservation of our culture. I think that 
would be a win/win situation across the board for the Park 
Service.
    Senator Udall. I would welcome any additional ideas as 
well. I know Historic Officer Knight probably has a lot of 
ideas we'd love to see included in the record that we could 
consider.
    Jim, I know you've been really focused on the capital needs 
of the park. Do you do any work in this area of working with 
the park to encourage young people to enjoy and learn from 
these resources?
    Senator Dyer. I have not. I will put that on my to do list.
    [Laughter.]
    Senator Udall. We know the Visitor's Center has to get 
done.
    Senator Dyer. Yes.
    Senator Udall. The conversion of----
    Senator Dyer. Yes, first things first.
    Senator Udall. Dr. Dethloff, do you have any insights into 
what you do, or you think we could do, when it comes to?
    Ms. Dethloff. NPCA has supported in the past a youth 
service program--the other thing that we direct later on with 
funding of that sort of legislation is we have corporate 
partners that we work with on volunteer opportunities. We've 
had opportunities for school aged children in the parks working 
on things like marking field migration paths. We have our 
California Desert Park field office has done a lot of work with 
bringing out volunteers including children working with the 
Marine Corps, actually, on Camp Pendleton on Native plant 
reseeding and re-storing those.
    We also, as an organization, have family days where we, 
particularly our Central Valley office, which is one where we 
reached out to the non-traditional park visitors and try to 
bring more Latino families, not necessarily to Yosemite 
National Park, but down in the Fresno area. We think it is done 
a bit more about trying to connect them with those places. Our 
other regional offices also do family days that have similar 
events.
    Senator Udall. I wanted to note too since we have the 
regional directors here that I've been impressed with this last 
year, the activities at the Colorado National Monument that 
Michelle Wheatly in particular have put in place.
    Then I had the opportunity to be in the Great Sand Dunes 
National Park. There's a wonderful outreach into local 
communities to high school and younger youth to experience that 
park. So those are two local models of success.
    I wanted to ask you if you had any response to Ms. Krauss' 
comment about tribal park ranger cross training opportunities 
potentially. There may be some of that happening I don't know 
about. I was wondering if you either a reaction now or a 
reaction for the record later.
    Ms. Joss. Just a personal reaction. I think it sounds like 
a great idea.
    Senator Udall. We can build on the sailors and the marines.
    [Laughter.]
    Senator Udall. Their engines create a force.
    Ms. Krauss, let me move back to you, if I might. I had a 
question I prepared. I think you spoke to this, but you said 
over 120 tribes have their own historic preservation programs, 
most of those set up in just the last decade.
    When a tribe develops that interest what's the cost to make 
that idea real and how much of the funding comes from the 
Federal Historic Preservation Program steady, verses other ways 
of funding?
    Ms. Krauss. So, I understand, how much it cost the 
government or the tribes to establish a tribal historic 
preservation program?
    Senator Udall. I think starting with the tribe and then how 
much are we able to help.
    Ms. Krauss. The answer is, in as distinct a way as 
possible, the tribal level requires that the government 
institute its own process on how the officer will interact with 
the tribal government. So they've become the front person for 
Federal agencies. So that's the level of responsibility that 
the THPO has at the tribal level.
    So that requires a tribal component to all get on board and 
support it. So however much it costs the tribe to get through 
the tribal council process probably. So that's a separate 
issue.
    But the Federal Government supports the tribal historic 
preservation officers and the State historic preservation 
officers from the Historic Preservation Fund that has recently 
come under some attack, unfortunately, but you know, it's one 
of the crucial pieces of the funding total for historic 
preservation in our country. So----
    Senator Udall. Thank you. Sorry. We're getting an update. 
We've got a plow maybe that's going to run through at 12:35, 
12:40, 12:45. So we're going to begin to wind down the hearing 
over the next 10 minutes or so. So that's the update I was 
getting.
    Because Terry gave a very powerful prayer.
    I didn't hear all of what you had to say, but your comments 
will go in the record.
    But I thought as we--because it's been very helpful to me 
that before I end the hearing I'd like to turn to each and 
every one of you and give you a chance to make some final 
comments. In that comment, if you would, it's your view. I'd 
love to ask you what you think the No. 1 priority for ensuring 
the protection of our cultural treasures for our children 
should be.
    I'll start with the Chairman. Laura had a chance to share 
her thoughts with us. So I'm going to start with you, Chairman 
Hayes.
    Mr. Hayes. I think one of the, from a tribal perspective, 
is to be able to engage the tribe in that conservation process 
and having them at the table--always been on a menu. I think 
with everything that's happening with TPHO and with the talk on 
the tribal side. You know we feel that it's very important. 
That's why Terry wears many hats.
    When you talk about limited resources that's what we have 
to utilize. We have tribal members, such as Terry stepping up 
to the plate with limited resources on the tribal side instead 
of--help us in the preservation of our cultural--and heritage. 
But that would be really the No. 1. Any programs or any 
policies that are being considered need to have the tribal 
perspective especially when it's within Indian Country. I think 
by that we can be able to be a part, to participate in the 
implementation of laws or statutes that we can create.
    Senator Udall. Thank you. I think that's a very timely, 
very important and has, I think I can say, been overlooked in 
the past. We should go the extra mile to ensure that it doesn't 
happen moving forward. I look forward to working with you in 
that regard.
    Mr. Hayes. Thank you.
    Senator Udall. Chairman Dyer, got a lot of titles for you.
    Senator Dyer. Thank you.
    Mr. Chairman, Mesa Verde Foundation is acquiring toward 
building things, brick and mortar and that's just the way we 
found it and that's been the implementation. There is another 
organization, the Mesa Verde Museum Association, and they are 
more, well they run the bookstore for one thing.
    Senator Udall. Sure.
    Senator Dyer. So they've got a funding source.
    Senator Udall. Right.
    Senator Dyer. But they're the educational arm of what the 
volunteer effort goes to.
    We do coordinate with one another. I'm the designated Mesa 
Verde guy to sit as the museum association does its magic. So 
we're in sync.
    But I think after being here today I think that Mesa Verde 
Foundation needs to take another look at the educational 
component of what we can do.
    Senator Udall. OK. Thank you for that insight.
    Ms. Krauss.
    Ms. Krauss. I want to state that in terms of the working 
relationship with Indian tribes and the Park Service, I don't 
think it's ever been at a more positive point. Under Director 
John Jarvis, you know, he's had a long history of working with 
tribal government.
    But I know that NATHPO is encouraged and looks forward to 
continuing to work with the Park Service. In the written 
statement, it actually states that, ``Perhaps the next 
generation of Native people will be allowed to express their 
history from their own point of view and be a present part of 
the story for park visitors who want to hear the authentic 
story of tribal connections to natural and cultural 
resources.'' I think that summarized our point of view very 
well.
    Senator Udall. de Tocqueville, the great French observer of 
America in the 1830s, among many insights that still hold 
today--Jim, I know you and I talked about this in fact--
America's strength is her capacity to undo her mistakes. 
Sometimes you wonder.
    Churchill also said that you can always count on the 
Americans to do the right thing after they've tried everything 
else.
    [Laughter.]
    Senator Udall. We have more work to do to build, and I say, 
we, the majority culture in America, to rebuild the best and 
the relationship and the friendship with Indian country. I'm 
deeply committed because it has been my family to do so.
    Having said that, it's easy to say that. It's challenging 
to do that. But the comment you just made gets right to the 
heart of that. I know there are other countries in other parts 
of the world that also struggle with that challenge and that 
responsibility. But we need to continue to struggle. I 
appreciate the way that you outlined what I see as a real 
opportunity.
    Ms. Krauss. Thank you.
    Senator Udall. Thank you for that.
    Ms. Dethloff.
    Ms. Dethloff. I would say from the report we did with the 
77 parks that the issues are very inter related. But--some of 
the linear fashion that do exist that they just don't have the 
means to document what they have. That's not very effective, 
but it's what you build on and what you build up all the way 
through to target our interpretation.
    Interpretation needs to be a strong flat foundation for 
interpretation--that's what gets people to connect. It gets 
people to care. It gets people to learn from these places.
    So we would stress that as an important component of 
recruiting cultural resources is doing it at a level that will 
work and then you'll have people wanting to preserve the 
components of our culture and lives.
    Senator Udall. Powerfully stated and completely on point. 
Thank you for that.
    The set of insights in your testimony really covered all 
the ways in which we could do that. So again, thank you.
    I want to bring the hearing to a close. I'm going to make a 
couple of additional comments. Then again it will give a 
chance, I think, to visit a little bit before. The plow 
literally, I think, is going to lead a convoy down the hill.
    [Laughter.]
    Senator Udall. It could be a wonderful afternoon when it 
clears.
    Right, Historic Officer Knight, we're going to see a 
clearing at some point and God's creation will be in front of 
us in all its glory and long vistas.
    I'm someone who believes strongly that you not only need an 
economically diverse society and that your natural systems need 
to be diverse, but cultural diversity, although in some 
quarters, debated, is crucial for our species. There's no one 
way of being human.
    There are cultures all over our world that were strong, 
that were fascinating that lived in harmony with Mother Nature. 
I think a great risk is we let cultures become extinct as well 
as ecosystems or economies. In a sense we've got that question 
in a broader way here today in a way that was moving for me, 
particularly Chairman Hayes, your comments, really hit home. I 
think we also acknowledge the important role that our Parks 
play in our economy. Given the tough times that we face we 
should take note.
    I am a long time mountain guide. My friends, like Jim 
Beaubukery, wonder what got into me to become a politician. But 
there's been very good news out of the outdoor recreation 
industry these last few years. Their sales are up, whether they 
be equipment or the guided trips or whatever it may be. People 
in our country are staying at home a little bit more and taking 
advantage of these marvelous natural resources. We have and 
continue to see people from other countries travel to America. 
So I think it's important to underline that even in our economy 
the role that our parks play.
    Then finally our National Parks do continue to be one of 
our best ideas or America's best idea. To speak to Ms. Krauss 
and others that if our parks can bring us closer together as 
Americans in all our various shapes, backgrounds, religions, 
cultural outlooks, all the better for the National Parks and, 
truly, we moniker America's best idea will hold fast and we can 
expand on it.
    Jim, do you want to comment?
    Senator Dyer. Just your last name is Udall. I think 
politics is in the DNA.
    Senator Udall. It's a defective gene.
    [Laughter.]
    Senator Udall. It's why I'm a big supporter of genetic 
research, Jim. See if we can strip it up.
    But again let me thank, Cliff, your great staff, the work 
that you do, the flat hats are special. The people who took the 
time, the citizens who are here. It's really great to share 
this important hearing with you.
    We'll keep the record open for additional questions and 
statements.
    I hope everybody gets home safely. As I mentioned the snow 
plow will be here approximately 12:45 to lead a group.
    If people want to stay, we'll supply cots and blankets for 
the night and your ranger team is ready to lead some walks in 
cold conditions.
    [Laughter.]
    Senator Udall. So thanks for coming. It's been a wonderful 
hearing. Thank you all. With that this hearing of the National 
Park Subcommittee of the Energy Natural Resources Committee is 
concluded.
    [Whereupon, at 12:45 p.m., the hearing was adjourned.]

    [The following statement was received for the record.]

       Statement of Crow Canyon Archaeological Center, Cortez, CO
    This statement provides written comments to the Committee on Energy 
and Natural Resources-Subcommittee on National Parks, Forests, and 
Public Lands; the comments are in response to the recent hearing on 
November 5, 2011 at Mesa Verde National Park, Colorado that was chaired 
by Senator Mark Udall, Colorado. The theme of the hearing was 
preserving history, culture, and jobs for America's future.
    The Crow Canyon Archaeological Center, of Cortez, Colorado is a 
nonprofit institution with a threefold mission: To conduct innovative 
archaeological research, to deliver public education programs informed 
by that research, and to involve American Indians in the Center's 
research and education programs. Deborah Gangloff, President and CEO of 
Crow Canyon, and Mark Varien, the Center's Research and Education 
Chair, attended the subcommittee hearing.
    We begin by applauding Senator Udall and the expert witnesses who 
testified at this hearing. Each of the participants provided excellent 
testimony regarding the treatment of cultural resources in America's 
national parks. The hearing emphasized three primary issues: 1) how to 
best protect and preserve cultural resources; 2) what partnerships are 
needed to achieve the goals of protection and preservation; and 3) how 
the management of cultural resources can benefit the U.S. and local 
economies.
    The hearing was exemplary, but an important perspective missing: 
virtually no attention was given to the ``Why'' question. Why--beyond 
the economic benefits of associated tourism in the parks--is the 
preservation of irreplaceable cultural resources is so important? We 
believe a principal reason for preserving these resources is so they 
may be studied and interpreted for the benefit of the American (and 
world) publics. The study of cultural resources is the primary means by 
which we learn about the distant human past. The national parks are a 
treasure trove of archaeological sites that can contribute invaluable 
knowledge about human history, if properly studied. The National Park 
Service (NPS) has both the opportunity and the responsibility to 
further knowledge about the past by facilitating carefully designed 
archaeological research on the resources it manages on behalf of the 
nation. We address this omission and the issue of archaeological 
research in national parks in these comments.
    Acquiring reliable knowledge about the past is essential if we are 
to understand the cultural development of human society and gain an 
appreciation for cultural diversity. Our society spends billions of 
dollars each year on scientific research aimed at important questions 
such as finding a cure for cancer or the nature of the planet Mars. 
Little by comparison is spent on research into the human past. Yet it 
can be argued it is our lack of understanding of ourselves as social 
and cultural beings that is the biggest obstacle we encounter as we 
attempt to solve the problems facing society today. In this light, 
study of the human past is more than the exploration of a distant time. 
Instead it is an intellectual endeavor that is critical to meeting the 
challenges of today's world.
    We believe that society benefits most from the management of 
cultural resources in America's national parks when the following three 
areas intersect: 1) the preservation of cultural resources through 
careful management; 2) problem-oriented research that amplifies our 
understanding of the human past; and 3) the dissemination of the 
results of that research to the public through interpretive programs.
    There was testimony about research at the hearing delivered by Dr. 
Gail Dethloff, Senior Director, the Center for Park Research, National 
Parks Conservation Association. Dr. Dethloff's articulate testimony 
focused on the fact that there has not been adequate inventory of 
cultural resources in most parks: The Park Service cannot manage these 
resources if they don't have this baseline information. We support this 
perspective, but inventorying resources so they can be better protected 
and managed does not address the issue of conducting research to learn 
about the past. Preservation and management are means to an end--they 
make it possible to use cultural resources to learn about the human 
past--but they do not in themselves contribute new understandings of 
the past. This requires research specifically designed to produce those 
new understandings--in other words, ``problem-oriented research.''
    Crow Canyon conducts long-term, multidisciplinary, problem-oriented 
research into the human past. A guiding principle of Crow Canyon's 
mission is that there are multiple ways of knowing the past. We focus 
on two important ways of knowing: 1) archaeological research that 
employs scientific methods, and 2) the traditional knowledge that 
American Indian people have about their past. The integration of these 
two ways of knowing produces an inclusive and multivocal understanding 
of the past.
    A book could be written on the topic of implementing problem-
oriented research in national parks; however, our comments will focus 
on four issues we believe are most important. The first is the 
intellectual context in which problem-oriented archaeological research 
is conducted. The second is the importance of including American Indian 
concerns and traditional knowledge about the past. The third is that 
archaeological excavation--conducted in a judicious manner that 
conserves the resource and addresses American Indian concerns--is a 
critical component of problem-oriented research. The fourth is that the 
results of problem-oriented research need to be disseminated to the 
public through a variety of channels, including but not limited to 
interpretive programs in the parks themselves.
    We believe that problem-oriented research needs to be part of the 
mission of the NPS; research cannot be confined to activities aimed 
solely at the management of cultural resources to ensure their future 
availability. Further, archaeological research, like scientific 
research in general, involves participating in a community of 
researchers that includes but is not limited to NPS staff.
    Problem-oriented research is different than research designed to 
acquire basic information needed to manage cultural resources. Problem-
oriented research begins with questions about the human past and 
identifies methods to answer those questions. America's national parks 
contain some of humanity's most important historic resources, and if we 
are to understand human cultural change those resources need to be open 
for archaeological research.
    A challenge faced by the NPS is that making progress in 
understanding the human past through problem-oriented research requires 
a process that exists outside of the NPS bureaucracy. This is the peer-
review process. Peer review governs the administration of research 
funding and the publication of research results. NPS archaeological 
staff should see themselves as playing a role in the peer community, 
but they cannot fully constitute a peer community for most types of 
research problems.
    The NPS has made great strides toward including American Indian 
perspectives in the management of cultural resources since the 
enactment of the Native American Graves Protection and Repatriation Act 
in 1990. The same cannot be said for considering the perspectives of a 
community of scholars when developing and initiating a research program 
on cultural resources within national parks. We recognize that the NPS 
has to make the final decisions on how research within the parks is 
implemented, but we believe the NPS staff needs involve the larger 
research community in this process. Outside researchers should be able 
to conduct research projects within the parks--of course with NPS 
approval and oversight. And the review of both externally and internal 
initiated research proposals should include a range of informed experts 
and not be limited just to NPS staff. Nowhere in the conduct of modern 
problem-oriented scientific research are such administrative 
limitations considered appropriate.
    There are some cases where problem-oriented archaeological research 
is currently being conducted in the national parks. For example, NPS 
staff members at Mesa Verde National Park and Bandelier National 
Monument are part of a large and multidisciplinary research team that 
is conducting the Village Ecodynamics Project (funded by the National 
Science Foundation). This provides a model for how a externally-
generated program for problem-oriented research can be implemented by 
the NPS.
    It is also imperative that American Indian perspectives be 
considered when managing cultural resources and designing research in 
national parks. Mr. Gary Hayes, chairman of the Ute Mountain Ute 
nation, did an excellent job of addressing this issue in his expert 
testimony at the hearing. We would emphasize that American Indians 
should not only be consulted for issues of cultural sensitivity and in 
the interpretation cultural resources, as is currently the case, but 
they should also be included in the development of the research 
initiatives established by the park.
    The expert testimony of Ms. D. Bambi Kraus, President of the 
National Association of Tribal Preservation Officers, emphasized the 
important role that Tribal Historic Preservation Officers (THPO) play 
in the process of involving the tribes on issues concerning cultural 
resources in the national parks. Our experience supports her testimony. 
Tribes that have a THPO and/or a cultural preservation office are much 
more likely to be involved in consultations regarding cultural 
resources. As an example, Crow Canyon archaeologists recently worked 
with the Ute Mountain Ute THPO and other consulting archaeologists to 
conduct field work and develop a preservation plan for an important 
site on Ute Mountain Ute lands. This project would was possible because 
the Ute Mountain THPO could authorize and oversee the project. We 
believe the federal government should do all that it can to promote the 
development of THPO programs and cultural preservation offices among 
the Indian tribes.
    A legitimate issue for tribes is whether excavations can be 
conducted at archaeological sites in ways that do not intrude on 
culturally sensitive areas or artifacts. Here again, examples 
illustrate how these issues can be resolved: Crow Canyon Crow Canyon 
recently collaborated with the NPS, the Hopi tribe, and the Jemez tribe 
to conduct a six-year limited excavation project at the Goodman Point 
Unit of Hovenweep National Monument. The research design for this 
project resulted from extensive consultation between representatives of 
these tribes, NPS staff, Crow Canyon researchers, and members of the 
Pueblo communities having traditional ties to the area.
    Despite this example, problem-oriented archaeological projects--and 
especially those that rely in part on excavations--are increasingly 
rare in national parks. Several factors account for this, including the 
cost of artifact curation and the fact that excavation physically 
impacts the archaeological record. Despite these issues, we believe 
judicious excavation is critical to the dynamic of problem-oriented 
archaeological research. Crow Canyon supports an ongoing excavation 
program, and our excavations have fundamentally altered and improved 
the interpretations of archaeological sites where we have worked. 
Excavations are the only means by which archaeologists can obtain 
certain kinds of specimens necessary to address specific questions. 
Archaeologists conducting excavation-based research need to design 
sampling strategies that leave the great majority of the archaeological 
record intact for future generations and they need to consult with 
tribes to make sure that the concerns of American Indians are taken 
into account. But it is critical that excavations remain in the tool 
kit as we seek to answer questions about the human past. Again, to use 
the Goodman Point Project as an example, the excavation component of 
the project intruded on far less than one percent of Goodman Point 
Pueblo and the smaller sites that comprise the cluster of associated 
sites in the Goodman Point Unit.
    Finally, it is critical that problem-oriented archaeological 
research be disseminated to a broad public audience through a wide 
range of products. These include peer-reviewed publications for a 
professional audience, publications for nonprofessionals, public 
lectures, educational materials for school children that are designed 
for use in the classroom and on the Internet, museum displays, tours, 
etc. The public benefit of preservation is fully realized only when 
problem-oriented research is conducted and then disseminated to a large 
audience. The dissemination of research results is another area where 
the NPS needs to develop partnerships in order to tap the full 
potential for public benefit of their management of cultural resources. 
Research, published though the peer review process, provides an 
important foundation for all educational and interpretive efforts 
because it provides the content for the development of these materials.
    The greatest public benefit of the cultural resources in national 
parks is their ability to teach us who we are as social and cultural 
beings so that we can use this knowledge to create a healthy society. 
This public benefit can only achieved through the intersection of 
preservation, education, and problem-oriented research. This research 
includes integrating archaeological research conducted using scientific 
methods and the traditional knowledge of American Indian people. 
Achieving this public benefit can only be achieved through partnerships 
between the NPS, the archaeological research community, American 
Indians, and others involved in these efforts.


                                  <all>

</pre></body></html>
